                                                                                              EXECUTIVE SUMMARY




        MESSAGE FROM THE SPECIAL INSPECTOR GENERAL FOR
                 AFGHANISTAN RECONSTRUCTION

I congratulate the new 111th Congress of the United States, to whom we are pleased to submit this second formal
report prepared by the Special Inspector General for Afghanistan Reconstruction (SIGAR), as directed by Section
1229 of the National Defense Authorization Act of 2008. Our of¿ce is growing in its understanding and appreciation
of the tremendous responsibilities of its assigned tasks.

Having now met with leaders at nearly all levels of the Afghanistan reconstruction effort and having personally
conducted two extended visits to Afghanistan, I can state with con¿dence that there is much work for SIGAR to
perform in order to provide the depth and breadth of oversight the Congress has mandated. The reconstruction
effort is taking place in a complex, challenging, dangerous, and inhospitable environment. Participants at all levels
brave the dif¿culties in a gallant effort and should be commended for their many sacri¿ces. However, their sacri¿ces
will not bring about success if there is no clear and uni¿ed strategy on which to focus and to which all partners in
the reconstruction effort are unequivocally committed. Based on my recent trips to Afghanistan, I fear there are
major weaknesses in strategy. Although SIGAR has not completed an in-depth review of reconstruction strategies,
there is a broad consensus among those with whom I have spoken that reconstruction efforts are fragmented and
that existing strategies lack coherence. Furthermore, senior of¿cials of the government of the Islamic Republic of
Afghanistan have expressed a strong desire for greater involvement and authority in the reconstruction of their
country. These of¿cials believe that the institutions and people of Afghanistan have the capacity to effectively
participate more fully in the management and implementation of reconstruction contracts. The coherence of strategy
and the degree of involvement of the government of Afghanistan are matters of importance to the SIGAR mandate
and are among the many issues that will receive oversight attention from SIGAR.

I appreciate the funding support the Congress continues to provide our of¿ce that is allowing us to grow on a path
toward meeting the challenges ahead. The SIGAR Joint Announcement Memo, signed by the Deputy Secretaries
of State and Defense on October 21, 2008, has helped to advance the support those agencies are to provide, as
mandated by the NDAA Act of 2008. A copy of this memo is provided at Appendix 3 of this report. Additionally, I am
pleased to inform the Congress that SIGAR has established a permanent of¿ce at the U.S. Embassy in Kabul and
intends to provide strong oversight by expanding its presence in Afghanistan to over 30 employees located at three
locations in Afghanistan. I have assigned my Principal Deputy Inspector General to lead this critical element.

Respectfully submitted on January 30, 2009,




Arnold Fields
Major General, USMC (Ret.)
Special Inspector General for Afghanistan Reconstruction



                                                 Of¿ce of the SIGAR | January 30, 2009 Report To Congress I i
                                                                                                                EXECUTIVE
                                                                                                                 TABLE OF CONTENTS
                                                                                                                          SUMMARY




                                                    Table of Contents


List of Tables and Figures ........................................................................................................ iv
Executive Summary ................................................................................................................ 1

Section I – Background ...........................................................................................................       4
       Introduction ..................................................................................................................   4
       De¿ning SIGAR Key Terms .........................................................................................                 4
       Afghanistan Updates ...................................................................................................           7

Section II – Afghanistan Oversight Baseline ..............................................................................               12
       Introduction ..................................................................................................................   12
       Oversight Institutions in Afghanistan .............................................................................               12
       SIGAR Initial Assessment of Oversight Reports .............................................................                       14

Section III – Reconstruction Funds Analysis ..........................................................................                   35
       Introduction .................................................................................................................    35
       Depiction of Reconstruction Funds...............................................................................                  35
       Unexpended and Unobligated Appropriated Funds ....................................................                                42

Section IV – SIGAR Potential Assessment Areas ..................................................................                         45
       Areas of Review ..........................................................................................................        45
       SIGAR Oversight Methodologies ................................................................................                    45
       Summary .....................................................................................................................     57

Section V – SIGAR Updates ..................................................................................................             58
       SIGAR Organizational Design ....................................................................................                  58
       SIGAR Budget ............................................................................................................         59
       Joint Announcement Memo ........................................................................................                  60
       Inspector General Act of 2008 ....................................................................................                61
       SIGAR Afghanistan Trips ............................................................................................              61
       SIGAR Hotline .............................................................................................................       63
       SIGAR Coordination Efforts .......................................................................................                63
       SIGAR Data Call ........................................................................................................          64

Appendix      1   –   Select Terms and De¿nitions ......................................................................... 66
Appendix      2   –   Links to Oversight Reports and Websites .................................................... 70
Appendix      3   –   Joint Announcement Memo ........................................................................... 79
Appendix      4   –   Inspector General Reform Act of 2008 ......................................................... 82
Appendix      5   –   Acronyms and Abbreviations ......................................................................... 99
Appendix      6   –   Endnotes ...................................................................................................... 102




                                                        Of¿ce of the SIGAR | January 30, 2009 Report To Congress I III
                                                                                                                   iii
EXECUTIVE
TABLE OF CONTENTS
          SUMMARY




                                               List of Tables and Figures



  Figure 1 - Afghanistan Command and Control .............................................................................. 8

  Table 1 - U.S.-led PRTs. .................................................................................................................... 10

  Table 2 - Reports and Recommendations by Agency ................................................................. 14

  Table 3 - Completed State Oversight Reports .............................................................................. 15

  Table 4 - Planned 2009 State OIG Oversight Reports ................................................................ 15

  Table 5 - Completed DoD IG Oversight Reports .......................................................................... 16

  Table 6 - Planned and Ongoing 2009 DoD IG Oversight Projects .......................................... 20

  Table 7 - Completed USAID OIG Oversight Reports ................................................................... 27

  Table 8 - Planned 2009 USAID OIG Oversight Reports ............................................................. 28

  Table 9 - Completed GAO Oversight Reports ............................................................................... 31

  Table 10 - Planned 2009 GAO Oversight Reports ...................................................................... 32

  Figure 2 - Funding by Agency ........................................................................................................ 35

  Figure 3 - Total Amounts Appropriated since 2001 by Agency ............................................... 36

  Table 11 - U.S. Funds Appropriated to Afghanistan Reconstruction Efforts per Year ........ 37

  Table 12 - Agency Sub-Allocations by Program .......................................................................... 38

  Table 13 - General Overview Sources of Funds (in millions) as of September 30, 2008 .... 39

  Table 14 - Status of Reconstruction Funds Appropriated since 2001 ....................................... 40

  Table 15 - Cumulative Unexpended Appropriated Funds ............................................................. 42

  Table 16 - Unexpended Appropriated Funds since 2006 .............................................................. 43

  Figure 4 - Map of PRT Locations ..................................................................................................... 49



iv | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
IV
                                                                                                                  EXECUTIVE
                                                                                                                   TABLE OF CONTENTS
                                                                                                                            SUMMARY




Table 17 - List of PRT Locations ................................................................................................... 49

Table 18 - PRT Models .................................................................................................................... 50

Figure 5 - PRT Command and Control ...................................................................................... 52

Figure 6 - Structure of U.S. led PRTs in Afghanistan ........................................................... 53

Table 19 - Civilian and Military Personnel in U.S.-led PRTs in Afghanistan ...................... 54

Table 20 - Afghanistan and Iraq PRT Comparison ................................................................... 57

Figure 7 - SIGAR Organizational Chart ...................................................................................... 58

Figure 8 - Afghanistan Of¿ce Organizational Chart .......................................................... 59

Table 21 - SIGAR Funding Summary (in millions) ............................................................. 60




                                                          Of¿ce of the SIGAR | January 30, 2009 Report To Congress I Vv
                                                                                 EXECUTIVE SUMMARY




                                 EXECUTIVE SUMMARY

This is the second quarterly report of the Special Inpsector General for Afghanistan
Reconstruction (SIGAR) to the U.S. Congress, submitted under the provisions of the Fiscal Year
2008 National Defense Authorization Act. It adds to the ¿rst quarterly report submitted October
30, 2008, which provided a summary of funds devoted to the reconstruction of Afghanistan
since 2001; a review of relevant U.S. and international laws and agreements which govern
the approach to the reconstruction of Afghanistan; and a status report on the establishment of
SIGAR as an independent oversight agency. Building on the information provided in the ¿rst
report, this submission provides a summary of oversight reports on Afghanistan reconstruction
since 2002, discusses initial SIGAR observations on some of the challenges to Afghanistan
reconstruction, and concludes by outlining SIGAR’s methodology for oversight.

Section I of this report provides a de¿nition of Afghanistan reconstruction oversight and a
summary of recent developments that have affected reconstruction efforts in Afghanistan. As
highlighted in the box below, Public Law 110-181 established the SIGAR oversight duties and
authorities to include the independent and objective fact-¿nding, coordination, and reporting
of key accountability measures of U.S. government appropriated funds and funds otherwise
made available for Afghanistan reconstruction. SIGAR is proceeding accordingly and will
include in its oversight all funds and activities contributing to the reconstruction of Afghanistan
that are of interest to the Congress and the U.S. taxpayer. Section I also includes an overview
of signi¿cant initiatives underway to improve the reconstruction strategy, a review of recent
command and control changes for the International Security Assistance Force (ISAF) and
the U.S. military command in Afghanistan, and a summary of the greatest challenges to the
effective reconstruction of Afghanistan.

                    De¿nition of Afghanistan Reconstruction Oversight

   PL 110-181 de¿nes SIGAR’s authority for oversight of Afghanistan reconstruction to
   include any major contract, grant, agreement, or other funding mechanism entered into
   by any department or agency of the United States government that involves the use of
   amounts appropriated, or otherwise made available for the reconstruction of Afghanistan
   with any public or private entity for any of the following purposes:

           (A) To build or rebuild physical infrastructure of Afghanistan

           (B) To establish or reestablish political or societal institutions of Afghanistan

           (C) To provide products or services to the people of Afghanistan

           (D) To provide security or other support functions to facilitate Afghanistan
               reconstruction efforts




                                         Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 1
EXECUTIVE SUMMARY




  Section II of this report offers a summary of Afghanistan oversight reports since 2002 produced
  by other U.S. government oversight agencies with responsibilities within Afghanistan:
  Department of State, Of¿ce of the Inspector General (State OIG); Department of Defense,
  Of¿ce of the Inspector General (DoD IG); United States Agency for International Development,
  Of¿ce of the Inspector General (USAID OIG); and Government Accountability Of¿ce (GAO).
  This section is intended to highlight existing information and encourage action on ¿ndings
  and recommendations by responsible authorities. SIGAR will use these existing assessments
  and reports as an oversight baseline in order to better focus its efforts and avoid unnecessary
  duplication of activities.

  SIGAR’s review of existing reports reveals a number of common themes. State OIG oversight
  reports generally found that reconstruction-related programs were well-executed, but that in
  order to achieve success, a sustained effort was needed. DoD IG inspections reported on a
  number of administrative and contracting issues and recommended actions to improve internal
  controls and training. Reports by the USAID OIG focused on insuf¿cient contract management,
  an inability to obtain useful performance data, and poor contractor performance. GAO’s reports
  highlighted a lack of coordination of efforts and integrated strategy, deteriorating security,
  insuf¿cient Afghan capacity, and delayed funding, among other ¿ndings, with recommendations
  focusing on the need for more ef¿cient coordination of interagency efforts.

  Other U.S. government agencies and departments have also prepared reports on
  reconstruction activities in Afghanistan. SIGAR has asked the Army Audit Agency, the Federal
  Bureau of Investigation (FBI), the Department of the Army, U.S. Central Command, USAID
  Resource Management, the Of¿ce of the Secretary of Defense (OSD) Policy, OSD Comptroller,
  and the U.S. Army Corps of Engineers to provide information on these reports. SIGAR will
  summarize the information received from these agencies in its future quarterly reports and,
  where appropriate, urge that action be taken.

  Section III of this report provides a summary assessment of reconstruction funding in
  Afghanistan since 2002. This data reveals that substantial amounts of appropriated funds
  for Afghanistan reconstruction have been allocated but not fully disbursed. Based on the
  data provided to SIGAR, the amount of unexpended and unobligated funds is in the billions
  of dollars. SIGAR will audit all appropriated funds and report the reasons why such large
  amounts remain unobligated or unexpended, and to the fullest extent possible, determine the
  implications of such matters to the overall reconstruction effort.

  Section IV of this report brings the previous three sections into context by identifying several
  broad areas within existing reconstruction efforts on which SIGAR will focus during the next 12
  to 18 months. These include (1) reviews of internal controls, performance, and accountability of
  major contracts of various U.S. government agencies; (2) assessments of the internal controls
  and accountability of key Afghan ministries that have planning and management responsibility
  for U.S. funded reconstruction projects; (3) reviews of Provincial Reconstruction Teams’
  effectiveness and management, (4) reviews of reconstruction strategies, and (5) reviews



2 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                                     EXECUTIVE SUMMARY




of crucial sectors, such as power generation, water, irrigation, and rule of law. As a number
of oversight reports indicate, U.S. efforts in these and other areas have not measured up to
expectations; SIGAR will examine past ¿ndings and recommendations, and what corrective
actions have been taken.

In its review of these focus areas, SIGAR will use three interrelated fact-¿nding methods:
audits, inspections, and investigations.

    •   Audits will be performed in accordance with established generally accepted government
        auditing standards in order to assess the ef¿ciency, effectiveness, performance and
        results of programs.

    •   Inspections will provide oversight to ensure compliance with legal requirements,
        regulations, contract terms, or other accepted criteria.

    •   Investigations will review allegations of corruption and wrong-doing in order to provide
        an evidential basis for prosecution or other disciplinary action.

Section V of this report provides an update of signi¿cant SIGAR activities during the previous
quarter. As the agency continues to advance in capacity, SIGAR anticipates becoming
increasingly capable of ful¿lling the full measure of its mandate described in Section IV of this
report. Since October 2008, SIGAR has conducted four separate visits to Afghanistan. More
importantly, SIGAR’s long-term presence
in Afghanistan will enable it to provide
proper oversight through the permanent
of¿ce established at the U.S. Embassy
in Kabul in late January 2009. SIGAR
appreciates the support provided by
State and the Embassy. The team is led
by the SIGAR Principal Deputy Inspector
General and will be staffed by auditors,
inspectors, investigators, interpreters and
translators. In addition to the Embassy-
based SIGAR Of¿ce, other smaller,
satellite of¿ces at Bagram, Kandahar,
and the Combined Security Transition           The Special Inspector General conducting a successful
Command - Afghanistan (CSTC-A) will            inspection of a new provincial police headquarters built by
also be established in the coming months.                        an Afghan contractor.
The SIGAR hotline is operational in the
U.S. and Afghanistan, and SIGAR can now receive, process, and investigate allegations of
waste, fraud, abuse, and other issues.

SIGAR notes with great appreciation the Congress’s ongoing support as it continues to perform
its oversight duties.


                                           Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 3
EXECUTIVE
SECTION I –SUMMARY
            BACKGROUND




                                SECTION I - BACKGROUND

  Introduction

  The second quarterly report of the Special Inspector General for Afghanistan Reconstruction
  (SIGAR) to the U.S. Congress builds upon the ¿rst quarterly report SIGAR submitted on
  October 30, 2008. These reports are required under provisions of the Fiscal Year (FY) 2008
  National Defense Authorization Act (NDAA, Section 1229). SIGAR's reports summarize the
  activities “of the Inspector General (IG) and the activities under programs and operations
  funded with amounts appropriated or otherwise made available for the reconstruction of
  Afghanistan….”1

  This second report provides a thematic summary of Afghanistan reconstruction oversight since
  2002, as well as an overview of future SIGAR activities and operations.

  Section I of this report introduces the purposes of the report, provides discussion of key
  SIGAR terms, and presents updates on Afghanistan since the publication of SIGAR’s October
  30, 2008 Report to Congress. Section II summarizes and provides a baseline assessment of
  published oversight reports to date conducted by the Government Accountability Of¿ce (GAO),
  Department of State Of¿ce of the Inspector General (State OIG), Department of Defense
  Inspector General (DoD IG) and the United States Agency for International Development Of¿ce
  of the Inspector General (USAID OIG). Section III presents an analysis of reconstruction
  funding to date and a depiction of allocations and expenditures of the entities involved in
  Afghanistan reconstruction. Section IV identi¿es the broad areas within the reconstruction
  effort that SIGAR will focus upon in the next 12 months. Section V provides updates on the
  status on SIGAR and its commencement of oversight efforts.

  Defining SIGAR Key Terms

  SIGAR was established to afford the Congress and the people of the United States assurance
  that the money appropriated for Afghanistan reconstruction was spent as intended. The
  meaning of two key terms, oversight and reconstruction, shape the scope of SIGAR’s activities.

  Oversight

  Legislation clearly establishes SIGAR’s oversight functions. PL 110-181 enumerates the duties
  of the of¿ce as it relates to oversight of Afghanistan reconstruction as follows:2




4 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                         SECTION
                                                                             EXECUTIVE
                                                                                 I – BACKGROUND
                                                                                        SUMMARY




   It shall be the duty of the Inspector General to conduct, supervise, and coordinate audits
   and investigations of the treatment, handling, and expenditure of amounts appropriated
   or otherwise made available for the reconstruction of Afghanistan, and of the programs,
   operations, and contracts carried out utilizing such funds, including—

      •   the oversight and accounting of the obligation and expenditure of such funds;

      •   the monitoring and review of reconstruction activities and contracts funded
          by such funds, and of the transfer of such funds and associated information
          between and among departments, agencies, and entities of the United States
          and private and nongovernmental entities;

      •   the maintenance of records on the use of such funds to facilitate future audits
          and investigations of the use of such fund;

      •   the monitoring and review of the effectiveness of United States coordination with
          the Government of Afghanistan and other donor countries in the implementation
          of the Afghanistan Compact and the Afghanistan National Development Strategy;
          and

      •   the investigation of overpayments such as duplicate payments or duplicate
          billing and any potential unethical or illegal actions of Federal employees,
          contractors, or af¿liated entities and the referral of such reports, as necessary,
          to the Department of Justice to ensure further investigations, prosecutions,
          recovery of further funds, or other remedies.

   The Inspector General shall establish, maintain, and oversee such systems, procedures,
   and controls as the Inspector General considers appropriate to discharge the duties
   listed above.


SIGAR recognizes other government entities have certain oversight responsibilities for U.S.
government actions in Afghanistan. Section II depicts the oversight products of GAO and
the of¿ces of the three Congressionally-appointed Inspectors General (State OIG, DoD IG,
and USAID OIG). In addition, SIGAR is aware of various other institutions that have a role in
oversight, including the United Nations (UN), World Bank, NGOs, the Congress, Department of
Defense (DoD) Policy, and Department of State (State) Management.




                                       Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 5
EXECUTIVE
SECTION I –SUMMARY
            BACKGROUND




  Reconstruction

  SIGAR relies on its enabling legislation to de¿ne the term reconstruction as follows:

                       De¿nition of Afghanistan Reconstruction Oversight

      PL 110-181 de¿nes SIGAR’s authority for oversight of Afghanistan reconstruction to
      include any major contract, grant, agreement, or other funding mechanism entered
      into by any department or agency of the United States government that involves the
      use of amounts appropriated, or otherwise made available, for the reconstruction of
      Afghanistan with any public or private entity for any of the following purposes:

              (A) Build or rebuild physical infrastructure of Afghanistan

              (B) Establish or reestablish political or societal institutions of Afghanistan

              (C) Provide products or services to the people of Afghanistan

              (D) Provide security or other support functions to facilitate Afghanistan
                  reconstruction efforts


  The language that established SIGAR lists examples of activities that constitute the
  reconstruction of Afghanistan. The key element is U.S. government participation in the use or
  management of funds that contribute to the four purposes above.

  There are a number of other pieces of legislation that support a broad de¿nition of
  reconstruction in the case of Afghanistan. An example of this is the Afghanistan Freedom
  Support Act (AFSA) of 2002 (P.L. 107-327). The AFSA states that “the United States and the
  international community should support efforts that advance the development of democratic
  civil authorities and institutions in Afghanistan and the establishment of a new broad-based,
  multi-ethnic, gender-sensitive, and fully representative government in Afghanistan.” In the
  AFSA, Section 102, rationale for the assistance granted by Title I—Economic and Democratic
  Assistance for Afghanistan is provided. These reasons range from avoiding violence against
  the United States and its allies to reducing the chance that Afghanistan will again be a source
  of international terrorism. It also seeks to help establish a representative government that is
  responsive to the rehabilitation and reconstruction needs of its people, and reconstruction of
  Afghanistan through, among other things, programs to create jobs, facilitate clearance of
  landmines, and rebuild the agricultural sector, the healthcare system, and the educational
  system.3

  Section 103 of the AFSA also focuses on the following key topics, which provide a detailed
  enumeration of the categorical examples found in the enabling legislation.



6 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                          SECTION
                                                                              EXECUTIVE
                                                                                  I – BACKGROUND
                                                                                         SUMMARY




   •   The provision of urgent humanitarian needs

   •   The repatriation and resettlement of refugees and internally displaced persons

   •   The assistance of counternarcotics efforts

   •   The reestablishment of food security

   •   The rehabilitation of the agricultural sector

   •   The improvement of health conditions

   •   The reconstruction of the basic infrastructure

   •   The reestablishment of Afghanistan as a viable nation-state and market economy

   •   The provision of assistance to women and girls

   •   The strengthening of security and the provision of military assistance

A broad de¿nition of reconstruction is also found in various international agreements and
strategies. Among these are The Bonn Agreement (political and societal institutions; 2001)4,
The Afghanistan Compact (goals: security, governance, rule of law and human rights, economic
and social development; and metrics; 2006)5, and The Afghanistan National Development
Strategy (ANDS)6 (goals: metrics and priorities; 2008)6. All of the operative categories and
examples enumerated in these documents are closely related to those contained in State's
Foreign Assistance Framework and in the SIGAR enabling legislation.

Congress, mindful of $100 billion reconstruction efforts in Iraq, chose in the case of Afghanistan
to institute a broad and all-encompassing de¿nition of reconstruction within SIGAR’s enabling
language. By this de¿nition, reconstruction means rebuilding Afghan society in all of its aspects.


   Therefore, all sources of funds that affect the rebuilding of Afghan society are subject to
   SIGAR’s oversight.


De¿nitions of additional reconstruction terms are found in the glossary at Appendix A.

Afghanistan Updates

The following subsections describe developments in Afghanistan and their impact on current
reconstruction efforts.



                                         Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 7
EXECUTIVE
SECTION I –SUMMARY
            BACKGROUND




  Afghanistan Command and Control

  On October 6, 2008, DoD activated United States Forces-Afghanistan (USFOR-A), which was
  created to be a functioning command and control headquarters for U.S. forces in Afghanistan.7
  The purpose of USFOR-A is to consolidate U.S. military forces operating in Afghanistan under
  one uni¿ed command. General David McKiernan, USA, was appointed the Commander of
  USFOR-A (CDR USFOR-A).

  General McKiernan serves concurrently as the Commander of the International Security
  Assistance Force (CDR ISAF). The chains of command for ISAF and Operation Enduring
  Freedom (OEF) remain independent. U.S. Central Command (CENTCOM) continues to
  oversee U.S. counterterrorism and detainee operations.8

  Joint Force Command Brunssum (JFC-Brunssum), the North Atlantic Treaty Organization
  (NATO) military command based at Brunssum, the Netherlands, serves as the higher NATO
  headquarters for ISAF. Strategic command and control of ISAF is exercised by NATO, Supreme
  Headquarters Allied Powers in Europe (SHAPE) in Mons, Belgium.9 CENTCOM served
  as the higher command for the Combined Joint Task Force (CJTF) and Combined Security
  Transition Command-Afghanistan (CSTC-A) until the October 2008 creation of USFOR-A. For
  an illustration of NATO and U.S. command and control in Afghanistan, see Figure 1.

                                AFGHANISTAN COMMAND & CONTROL

                                        SHAPE

                                                                 CDR CENTCOM

                                   JFC BRUNSSUM



                                      CDR ISAF                   CDR USFOR-A


                                                                 CJTF-101 CDR
                          RC West RC North RC South RC Captial
                                                                   (RC East)

                                                                   BCT CDR
                                     Non-US PRTs                   (RC East)

                                                                  US-led PRTs



                            Figure 1 - Afghanistan Command and Control10




8 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                         SECTION
                                                                             EXECUTIVE
                                                                                 I – BACKGROUND
                                                                                        SUMMARY




New Reconstruction Strategies

A series of strategies for Afghanistan reconstruction has been in place since 2001. However,
there is no overarching strategy that has been implemented to guide all reconstruction efforts.
At the Paris Conference in June 2008, the government of the Islamic Republic of Afghanistan
(GIRoA) presented the ANDS, a strategy for the reconstruction of their country. The ANDS
was developed and approved by the GIRoA with international involvement and support.11 The
ANDS contains strategies for improvements in security, governance, economic growth, and
poverty reduction. The plan presents the government’s vision for Afghanistan in the year 2020
and outlines speci¿c goals within the three pillars (Security, Governance, and Development)
outlined in the Afghanistan Compact to be accomplished in the years 2008-2013. SIGAR
believes the ANDS should serve as the master strategy for the creation of other strategies
for Afghanistan reconstruction. However, the ANDS has yet to be fully implemented and
integrated by U.S. or NATO Commands, or properly integrated within the State Department’s
Mission Performance Plan in conjunction with the security and stability commands (ISAF and
USFOR-A).in Afghanistan.

In late 2008, the National Security Council began a comprehensive review across the spectrum
of U.S. involvement in Afghanistan. This review encompasses a range of government
participants, including U.S. interests in Pakistan that may impact Afghanistan.

Challenges to Reconstruction Strategies

The large number of international participants involved in Afghanistan reconstruction makes
strategic coordination a challenge. Many countries, in addition to providing differing levels of
funding, also place caveats on the funding that may restrict the execution of strategy. SIGAR
believes that the creation of an overarching, uni¿ed strategy in Afghanistan is required for
success in the reconstruction of Afghanistan.

Proposed Civilian Augmentation in PRTS

Provincial Reconstruction Teams (PRTs) are teams of civilian and military personnel
whose mission is expanding the inÀuence of the Afghan central government, contributing
to reconstruction efforts, and strengthening local governance. PRTs were established in
Afghanistan in 2002 and have subsequently been used in Iraq as well.12 For further information
on PRTs, see Section IV.

ISAF currently commands 26 PRTs in Afghanistan. A total of 14 countries lead these PRTs, with
the United States serving as the lead nation for 12 teams. Though DoD’s June 2008 Report
on Progress toward Security and Stability in Afghanistan reported that both USAID and the
U.S. Department of Agriculture (USDA) had fewer personnel serving in Afghanistan PRTs than
authorized, State has reported that all authorized positions but one are currently ¿lled.13
                                   Table 1 - U.S.-led PRTs.14



                                       Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 9
EXECUTIVE
SECTION I –SUMMARY
            BACKGROUND




  In November 2008, the U.S. Embassy to Afghanistan proposed new PRT models for
  Afghanistan and an increase in U.S. government civilian support to OEF, including the
  establishment of four new PRTs, the creation of District Support Teams (DSTs) and the
  expansion of the U.S. government civilian presence in Afghanistan by more than 200
  personnel. State reported that these proposals would be key to the success of the United
  States’ counterinsurgency campaign.

  The Embassy's proposal emphasizes engagement on the provincial and district level. State
  recommends adding personnel from State, USAID, and USDA to ensure all PRTs have
  U.S. government representation and further recommends adding four new PRTs in Parwan,
  Kabul city, Dai Kundi and Nimroz. Six Tribal Engagement Teams, comprised of tribal/
  cultural engagement experts, would be established primarily in Pashtun areas in order to aid
  cooperation with and understanding of tribal leadership. State advises placing rule of law (ROL)
  experts at several strategic PRTs in order to more fully utilize PRT capabilities to advance ROL.

  State also proposes implementing new DSTs. The teams would include State and USAID
  personnel working with locally-employed Afghan staff and would work in critical districts where
  civilians working the governance, development, and information lines of operation would be
  most valuable in the counterinsurgency effort. These teams will be critical in engaging and
  mentoring district and community leadership in areas which have been exceedingly dif¿cult to
  reach due to terrain and personnel.

  The proposal further envisions the creation of four Fly-Away Teams of one to three civilians
  (State/USAID/USDA), with the composition of the team tailored to the speci¿c requirements
  of the location. Together with military units (e.g., Civil Affairs teams), the Fly-Away Teams
  will initiate work within the governance and development lines of operation, assess further
  requirements for progress and establish mechanisms for continued PRT/DST engagement
  and support once the efforts have matured. The Fly-Away Teams will travel to forward-located




10 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                        SECTION
                                                                            EXECUTIVE
                                                                                I – BACKGROUND
                                                                                       SUMMARY




operating bases and remain at that location for a period of weeks or months, then return to a
central platform (DST, PRT, Task Force, Regional Command, or Kabul).

Under the Embassy’s proposal, all authorized USAID, State, and USDA PRT positions would
be ¿lled, and several strategically-chosen PRTs, as well as the embassy in Kabul, would
receive additional personnel from these agencies. USAID would establish teams of technical
representatives at each of the four regional commands. The proposal also suggests that a ROL
expert and a USAID and USDA representative be added to current U.S. brigades, with all future
brigades receiving four State personnel and four USAID Technical Advisors. State will further
expand its presence in Afghanistan by establishing Provincial Governance and Development
Of¿ces (PGDOs) to ensure that greater economic/development focus is brought to bear on
the more stable provinces of Nangarhar, Bamian, and Panjshir; these of¿ces will supplement
the work of the provinces’ PRTs. For example, the PGDO in Nangarhar will focus on the
governance/development issues of Jalalabad and its vicinity, allowing the Nangarhar PRT to
focus on the province’s other districts.

Altogether, the Embassy’s recommendations on expanding the PRT model in Afghanistan
would include 215 new positions: 82 from State, 105 from USAID, and 28 from USDA. Many
of the new personnel would be integrated into and supported by international forces, and State
has therefore recommended creating bilateral memoranda of understanding with the United
States’ Coalition partners. The timeline for implementing the proposed increase in civilian
personnel is dependent on identifying and securing additional resources.

Expected U.S. Military Increases for 2009

As has been widely reported, the Chairman of the Joint Chiefs of Staff stated in December
2008 that as many as 30,000 additional troops could be sent to Afghanistan, bringing the total
American force in Afghanistan to more than 60,000.15 The troop increases are expected to occur
in mid-2009. The increases are intended to combat the increasing security risk in Afghanistan
and help secure the area for reconstruction efforts. At least two combat brigades are slated to
be in Afghanistan in early 2009.16 Currently, an additional brigade is being added to Regional
Command East (RC East), increasing the total number of brigades there to three. This brigade
is slated to arrive in Afghanistan sometime in January 2009.17 In late September 2008, the
Secretary of Defense said that a Marine battalion will head to Afghanistan in November and an
Army brigade in January, but no more forces will be available for deployment to Afghanistan
until spring or summer of 2009.18 General McKiernan has asked that four additional brigades
be deployed to Afghanistan.19 Both the Secretary of Defense and General McKiernan have
stated that there would be a “sustained commitment” of American troops in Afghanistan for the
next three or four years, but a speci¿c number of total troops was not provided.20




                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 11
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




              SECTION II – AFGHANISTAN OVERSIGHT BASELINE

  Introduction

  One core objective of this report is to begin establishing a baseline of Afghanistan
  reconstruction oversight. To aid in the coordination of reconstruction efforts in Afghanistan,
  SIGAR is reviewing the ¿ndings and recommendations of other oversight entities, and what
  corrective actions have been taken. SIGAR will examine the information received from various
  agencies, indentifying overlaps and gaps in oversight and audit coverage, and recurring
  challenges to, ef¿cient results. Using this information, SIGAR will determine which areas have
  been adequately examined and which remain in need of review or follow-up.

  SIGAR has requested all published oversight reports from State OIG, DoD IG, USAID OIG,
  and GAO since 2002. SIGAR’s initial assessments of the ¿ndings and recommendations
  from these reports can be found in this section of the report. The Army Audit Agency, the FBI,
  the Department of the Army, CENTCOM, USAID Resource Management, OSD Policy, OSD
  Comptroller, and the U.S. Army Corps of Engineers (USACE) responded to SIGAR’s data
  request as well. Data submitted by these agencies will be analyzed and presented in future
  reports.

  Oversight Institutions in Afghanistan

  In the course of its oversight duties, SIGAR coordinates with other federal agencies having
  a role in Afghanistan operations and with other agency Inspectors General who also have
  oversight duties in Afghanistan. The key oversight agencies are DoD IG, State OIG, USAID
  OIG, and GAO. Other oversight entities also have jurisdiction in Afghanistan (including, but not
  limited to the Army Audit Agency, USACE, Defense Contract Audit Agency, and various military
  Inspectors General), but this report will focus on the four main entities mentioned above.

  U.S. Government Accountability Office

  GAO is an independent, nonpartisan agency that oversees federal government spending.
  GAO’s mission is “to help improve the performance and ensure the accountability of the federal
  government for the bene¿t of the American people.”21 Work completed by GAO is usually at the
  behest of Congress. GAO can also be required to research issues mandated by public laws,
  or may undertake work based on broad-based congressional interest under the authority of
  the Comptroller General. GAO supports congressional oversight through many avenues, such
  as auditing agency operations, investigating allegations of illegal activities, reporting on the
  ef¿ciency and effectiveness of government programs and policies, analyzing policy, outlining
  options for congressional consideration, and issuing legal decisions and opinions.




12 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                   SECTION II – AFGHANISTAN OVERSIGHT
                                                                            EXECUTIVE SUMMARY
                                                                                      BASELINE




United States Agency for International Development Office of the Inspector General

USAID OIG has oversight responsibility for USAID, the Millennium Challenge Corporation, the
United States African Development Foundation, and the Inter-American Foundation. The OIG
conducts and supervises audits and investigations of the programs and operations of these
organizations. Its mission is “to contribute to and support integrity, ef¿ciency, and effectiveness
in all activities” of the organizations under its jurisdiction.22 USAID OIG has four operational
units: Audit, the Millennium Challenge Corporation, Investigations, and Management. Six
overseas ¿eld of¿ces, each headed by a Regional Inspector General, are located in Cairo,
Egypt; San Salvador, El Salvador; Baghdad, Iraq; Manila, Philippines (which oversees
Afghanistan); Dakar, Senegal; and Pretoria, South Africa. USAID OIG is also establishing a
satellite of¿ce in Kabul, staffed by two employees. USAID OIG maintains a hotline to receive
complaints from employees, program participants, or the general public.

Department of Defense Inspector General

DoD IG serves as the Secretary of Defense’s principal advisor for matters relating to the
prevention of fraud, waste, and abuse in the programs and operations of the DoD. The of¿ce is
divided into seven areas: Audit, Investigation, Policy and Oversight, Intelligence, Special Plans
and Operations, Administration and Management, and Communications and Congressional
Liaison. DoD IG operates the Defense Hotline as an important avenue for reporting fraud,
waste, and abuse. To date the hotline has received more than 228,000 calls and letters, and
is estimated to have saved or recovered about $425 million.23 The IG plays a major role in
supporting the Global War on Terror (GWOT) by providing oversight of GWOT and Southwest
Asia operations, compiling and issuing the Comprehensive Audit Plan for Southwest Asia, and
hosting the quarterly Southwest Asia Joint Planning Group. In addition, the DoD Inspector
General staff has participated in training programs for Afghanistan military Inspector General
personnel.24

Department of State Office of the Inspector General

The vision of the State OIG is to promote effective management, accountability, and positive
change within State and the Broadcasting Board of Governors (BBG).25 State OIG has
oversight responsibility for programs and operations in each of the U.S. embassies, diplomatic
posts, and international broadcast installations, as well as approximately 40 bureaus or of¿ces
in the Department, and others in the BBG. The OIG mission is to conduct independent audits,
inspections, and investigations in order to “promote integrity, ef¿ciency, effectiveness, and
economy; prevent and detect waste, fraud, abuse, and mismanagement; identify vulnerabilities
and recommend constructive solutions; offer expert assistance to improve Department and
BBG operations; communicate timely information that facilitates decision making and achieves
measurable gains; and keep the Department, BBG, and the Congress fully and currently
informed.”26




                                       Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 13
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




  SIGAR Initial Assessment of Oversight Reports

  On December 1, 2008, SIGAR issued a request for data from agencies involved in Afghanistan
  reconstruction. The purpose of the data request was to enable SIGAR to establish a baseline
  of oversight efforts in Afghanistan. The data call also served as a means of obtaining ¿nancial
  data for all reconstruction monies in Afghanistan. The data requested included the following:

      •   The executive summaries of all Afghanistan oversight reports published since ¿scal year
          (FY) 2001

      •   All Afghanistan oversight of¿cial recommendations introduced since FY 2001, including
          any that may have been incorporated in follow-up reports

      •   All follow-up actions reported or executed since FY 2001, based on the ¿ndings and/or
          recommendations

      •   A list of pending oversight and planned oversight initiatives, including projected dates of
          completion

      •   Appropriations, obligations and sub-obligations pertaining to Afghanistan reconstruction
          efforts since FY 2005 to the present

  All agencies contacted responded to the data call. SIGAR has collected these reports and
  begun to analyze the ¿ndings. As discussed above, this report will focus on data from State
  OIG, DoD IG, USAID OIG, and GAO. Table 2 displays the number of reports, recommendations,
  and planned reports submitted by agency.




                           Table 2 - Reports and Recommendations by Agency

  The analysis of these reports is an ongoing effort. As an initial assessment of the ¿ndings,
  recommendations and follow-ups of the submitted reports, SIGAR has summarized the
  agencies’ common themes and areas of concern. The following sections provide tables

  i
   The number of DoD IG reports and projects include subject areas such as military and business operations that
  support DoD’s efforts in both Afghanistan and Iraq. The number of planned reports includes both planned and
  ongoing reports.


14 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                 SECTION II – AFGHANISTAN OVERSIGHT
                                                                          EXECUTIVE SUMMARY
                                                                                    BASELINE




depicting completed and planned oversight reports by agency, with SIGAR’s initial assessment
of the agencies’ ¿ndings and recommendations. Additionally, a brief overview of follow-up
actions and reports provided by the agencies is included.

The lists of reports provided for each agency presents an initial view of the range of topics
previously investigated or audited, and indicates the frequency of reporting by the various
agencies. The tables have been structured so that reports can be quickly referenced;
additionally, a list of links to electronic copies of the reports is in Appendix 2.

State Oversight Reports




                          Table 3 - Completed State Oversight Reports




                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 15
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




                        Table 4 - Planned 2009 State OIG Oversight Reports


  Findings

  State OIG oversight reports generally found that programs were well-executed, but that a
  sustained, long-term effort was needed. Programs such as police training and ROL initiatives
  were found to need continued support in order to accomplish their intended goals. Additional
  ¿ndings by the OIG include the following:

      •   The need for de¿ned strategies
             ʱ Example: State OIG noted the ad hoc nature of previous U.S. government ROL
                programming.27
             ʱ Example: State found the relevance of the counternarcotics strategy to the
                overall goals of U.S. government agencies in Afghanistan to be unclear.28

      •   Lack of evaluations of program effectiveness
             ʱ Example: State OIG stated it was unclear whether ROL programs were being
                 measured for effectiveness.29

      •   Lack of proper internal ¿nancial procedures
             ʱ Example: State OIG found that standard procedures for monitoring contractor-
                 held property did not exist. This created a lack of accountability, authority, and
                 responsibility for the property.30




16 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                SECTION II – AFGHANISTAN OVERSIGHT
                                                                         EXECUTIVE SUMMARY
                                                                                   BASELINE




State OIG also highlighted challenges in intra-agency, interagency, and international
coordination. The of¿ce discussed dif¿culties attaining adequate staf¿ng, as in the Bureau
of International Narcotics and Law Enforcement (INL) programs,31 and in “continuous” staff
turnover, as in ROL programs.32

Recommendations

Many of the recommendations made by State OIG involved the following:

   •   Expanding Department staf¿ng
          ʱ Example: State OIG proposed several times the establishment of new positions,
             such as a contracting of¿cer’s representative to work with police training.33
          ʱ Example: State OIG recommended reinforcing police internal affairs
             departments.34

   •   Changes or clari¿cations in an organization’s command structure
          ʱ Example: The Interagency Assessment of the Afghanistan Counternarcotics
             Program recommended U.S. government counternarcotics programs adopt
             a new management model in order to improve planning, oversight, and
             coordination.35
          ʱ Example: The Interagency Assessment of the Afghanistan Counternarcotics
             Program further recommended that Embassy Kabul should establish a Minister-
             Counselor for Counternarcotics.36

   •   Development and implementation of a strategic plan.
          ʱ Example: State OIG recommended Embassy Kabul develop a plan to link ROL
             institutions with police training and reform initiatives.37
          ʱ Example: It was also recommended that Embassy Kabul create a ¿ve-year
             strategic plan for ROL programs that corresponds with the Afghan government’s
             Justice Sector Strategy.38

The development and implementation of standard policies and procedures, such as those for
reviewing and monitoring contractor-held property, was also recommended.39

Follow-ups

As reported in the FY 2009 Update of the Southwest Asia Audit Plan, State is planning several
follow-ups on previously-reported topics, including police training and ROL programs. INL
provided SIGAR with updates on the status of recommendations concerning INL programs.
Out of 12 State OIG recommendations on INL programs, all but one are reported closed or
considered resolved by the Bureau.




                                     Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 17
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




  DoD IG Oversight Reports




18 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
           SECTION II – AFGHANISTAN OVERSIGHT
                                    EXECUTIVE SUMMARY
                                              BASELINE




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 19
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




                           Table 5 - Completed DoD IG Oversight Reports




20 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
           SECTION II – AFGHANISTAN OVERSIGHT
                                    EXECUTIVE SUMMARY
                                              BASELINE




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 21
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




22 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
           SECTION II – AFGHANISTAN OVERSIGHT
                                    EXECUTIVE SUMMARY
                                              BASELINE




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 23
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




24 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                               SECTION II – AFGHANISTAN OVERSIGHT
                                                                        EXECUTIVE SUMMARY
                                                                                  BASELINE




               Table 6 - Planned and Ongoing 2009 DoD IG Oversight Projects


Findings

The most common ¿ndings from DoD IG oversight reports were the following:

   •   Administrative issues
         ʱ Example: DoD IG discussed “weaknesses in administrative processes” in the
             implementation of the Commanders’ Emergency Response Program (CERP)
             that caused “inconsistent program implementation, unnecessary requirements,




                                    Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 25
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




                  and insuf¿cient documentation.”40
              ʱ   Example: DoD IG found that design and construction requirements were unclear
                  and kept changing, which increased the cost of the work, and standards for
                  Afghan construction were not formalized.41

      •   Contracting issues
             ʱ Example: Funds were inappropriately allocated and contracts were
                 inappropriately awarded by USACE, such as two of¿ces awarding contracts for
                 the same projects.42
             ʱ Example: Contracts were mismanaged, as in the management of the police
                 training contract.43


  Recommendations

      •   Internal controls and training
              ʱ Example: It was recommended that the Commanding General, Third Army/U.S.
                  Army Central develop and implement quality assurance and control programs for
                  units administering CERP projects, and additionally provide additional training
                  for CERP pay agents.44
              ʱ Example: CSTC-A was recommended to develop an internal control training
                  program as part of the police programs.45

      •   Audits
             ʱ Example: The of¿ce proposed that USACE conduct reviews of a speci¿c contract
                 and on the use of operations and maintenance funds.46
             ʱ Example: The of¿ce requested that the Defense Contract Audit Agency conduct
                 a review of the task orders awarded under a speci¿c contract, focusing on
                 unallowable cost items.47


  Follow-ups

  Although DoD IG did not report any scheduled follow-up reports for 2009, the of¿ce indicated
  plans to follow up on several reports and recommendations. For instance, planned actions
  in response to recommendations from Report D-2008-056, “Contractor Support to the Joint
  Improvised Explosive Device Defeat Organization in Afghanistan,” will be followed up on
  in January 2009.48 DoD IG provided detailed information on the status of DoD’s actions in
  response to 29 recommendations made by either GAO or DoD IG. Of these, DoD IG reported
  9 recommendations remained open.49




26 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                         SECTION II – AFGHANISTAN OVERSIGHT
                                                                  EXECUTIVE SUMMARY
                                                                            BASELINE




USAID OIG Oversight Reports




                              Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 27
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




                         Table 7 - Completed USAID OIG Oversight Reports




28 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                   SECTION II – AFGHANISTAN OVERSIGHT
                                                                            EXECUTIVE SUMMARY
                                                                                      BASELINE




                    Table 8 - Planned 2009 USAID OIG Oversight Reports

Findings

USAID OIG cited four main categories of ¿ndings:

   •   Insuf¿cient contract oversight
           ʱ Example: A December 2008 audit of Afghanistan’s Higher Education Project
              found that the mission needed to strengthen project monitoring and procedures
              for the review and approval of documents.50
           ʱ Example: A May 2006 audit found that no actions had been taken by USAID
              on the issue of 13 buildings that a contracted agency repeatedly requested to
              terminate construction due to decreasing security at the project sites.51

   •   Inability to obtain useful performance data
          ʱ A June 2008 audit of Afghanistan's Small and Medium Enterprise Development
                Activity found 11 out of 18 performance indicators unreliable because of lack of
                credible reporting data.52
          ʱ A February 2007 audit of Afghanistan’s Alternative Livelihood Program – Eastern
                Region, found that 2 of 15 performance indicators should not be evaluated due
                to a lack of suf¿cient data from incomplete program implementation.53

   •   Poor security
          ʱ Example: USAID OIG cited security as one factor in the inability to complete 205
              schools and clinics.54
          ʱ Example: USAID OIG found that security reasons caused the inability to work in
              large poppy-growing areas.55

   •   Poor contractor/sub-contractor performance
          ʱ Example: A September 2008 audit discussed the inability to evaluate program
              effectiveness because a contractor was operating without detailed work and
              monitoring plans.56
          ʱ Example: A 2005 report found that slow contractor response to USAID technical
              directives was a contributing factor to slowing program progress.57




                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 29
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




  Each report included ¿ndings that were program-speci¿c, such as unfamiliarity of the local
  labor force with construction practices, as noted in the 2005 audit of USAID’s School and
  Clinic Reconstruction Program.58 USAID OIG also reported that instances of incomplete or
  inadequate results were sometimes outside of management's control.59

  Recommendations

  USAID OIG made recommendations in a majority of its reports for improvements in USAID
  compliance with internal directives, as well as improvements in program implementation.
  Sample recommendations include:

      •   Better funding/contracting process for reconstruction efforts
             ʱ Example: USAID OIG proposed that USAID establish a more ef¿cient
                  process for the review and approval of contractor work plans for its Alternative
                  Development Program.60
             ʱ Example: USAID OIG recommended that USAID develop procedures
                  requiring the Program and Project Development Of¿ce to review performance
                  management plans of contractors and grantees for compliance with USAID’s
                  Automated Directives System 203 prior to approval by the technical of¿cer.61

      •   Expanding usage of USAID-supported services
             ʱ Example: It was recommended that USAID work with the Afghan government to
                determine fees for users of a new water system and expand usage to potential
                consumers.62
             ʱ Example: USAID OIG recommended that USAID require engineers from
                the Of¿ce of Infrastructure, Engineering and Energy work with Chemonics
                International, Inc. to take corrective action on each of the construction defects
                and to require these engineers to be part of the ¿nal inspection.63

      •   Strengthening internal controls
              ʱ Example: USAID OIG recommended a new system for controlling, projecting
                 and monitoring contract costs be implemented to improve the management and
                 oversight of the Higher Education Project.64
              ʱ Example: USAID OIG recommended that the cognizant technical of¿cer for the
                 Afghanistan Small and Medium Enterprise Development Activity be required
                 to provide technical direction to Development Alternatives, Inc. in updating the
                 performance management plan, rede¿ning the performance indicators and
                 targets; and redirecting their resources to areas where progress can make more
                 of an impact.65




30 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                SECTION II – AFGHANISTAN OVERSIGHT
                                                                         EXECUTIVE SUMMARY
                                                                                   BASELINE




Follow-ups

Of 25 reports, USAID OIG had only 3 follow-up reports. Follow-ups were completed for schools
and health clinic programs, road programs, and the Kandahar/Herat Highway program. An
additional follow-up report on Afghanistan’s Basic Education Program is scheduled for 2009;
however, USAID OIG did not report any additional planned follow-up reports. Since 2003,
USAID OIG has issued 68 recommendations, and the mission has reached closure on all but
18.

GAO Oversight Reports




                                     Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 31
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




                             Table 9 - Completed GAO Oversight Reports




                          Table 10 - Planned 2009 GAO Oversight Reports

  Findings

  The following are common themes among GAO reports reviewing Afghanistan reconstruction
  issues:

      •   Deteriorating security
             ʱ Example: GAO reported that poor security was a contributing factor in the delays
                 in road construction.66
             ʱ Example: GAO reported that 85% of weekly reports from the Afghan National
                 Police contained instances of attacks by suicide bombers and improvised
                 explosive devices. The higher level of attacks was related to the increased use
                 of the Afghan National Police in counterinsurgency operations.67



32 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                 SECTION II – AFGHANISTAN OVERSIGHT
                                                                          EXECUTIVE SUMMARY
                                                                                    BASELINE




   •   Poor infrastructure
          ʱ Example: A 2006 report cites Afghanistan’s lack of infrastructure as one reason
              why a signi¿cant reduction in poppy cultivation will take at least a decade.68
          ʱ Example: GAO reported that Afghanistan’s lack of infrastructure also slowed
              progress in its three principal alternative livelihood programs.69

   •   Lack of Afghan capacity
          ʱ Example: GAO named lack of human capacity as one obstacle to the successful
              completion of USAID projects in health, education, and infrastructure.70
          ʱ Example: GAO also found that dif¿culties in populating the Afghan National
              Security Forces stem from a lack of human capacity.71

   •   Delayed funding
          ʱ Example: According to GAO, a majority of assistance funds were unavailable for
             close to six months, which contributed to USAID’s failure to meet all of its yearly
             reconstruction targets in 2004.72
          ʱ Example: GAO found that due to limitations on USAID’s funding, the ability to
             evaluate project impact has suffered.73

   •   Coordinated Plans
          ʱ Example: GAO reported that despite a previous GAO recommendation calling for
              a detailed plan and a 2008 congressional mandate requiring similar information,
              DoD and State have not developed a coordinated, detailed plan with clearly
              de¿ned roles and responsibilities, milestones for completion, and a strategy for
              sustaining the Afghan National Security Forces.74
          ʱ Example: GAO found that U.S. coordination mechanisms for Afghanistan assistance
              were generally effective, but international assistance was not well coordinated in
              ¿scal years 2002-2003.75

   •   Lack of Mentors and Trainers
          ʱ Example: GAO testi¿ed that a shortage of police mentors has been a key
              impediment to U.S. efforts.76
          ʱ Example: GAO found that all Afghan National Army combat units include
              mentors and trainers, but a shortfall exists in the overall number of mentors.77

Most of the ¿ndings reported by GAO discussed issues out of the control of the investigated
agencies. However, a lack of a comprehensive strategy was also noted.78




                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 33
EXECUTIVE
SECTION II SUMMARY
           – AFGHANISTAN OVERSIGHT BASELINE




  Recommendations

  GAO made recommendations on the majority of its reports relating to Afghanistan. Many of the
  recommendations focused on the following goals:

      •   More ef¿cient oversight

      •   Achievement of U.S. policy goals

      •   Creation of better long-term strategies

      •   Improved coordination of interagency efforts

  Follow-ups

  The reports evaluated for this section contain a number of follow-up reports. The most notable
  are the follow-up reports on deteriorating security conditions in Afghanistan and the obstacles
  to achievement of U.S. goals. GAO also issued follow-up reports on the status of the ANSF. In
  2005, GAO recommended that the Departments of State and Defense develop detailed plans
  for completing and sustaining the ANSF; however, it was not until 2007 that DoD responded to
  the recommendation with a ¿ve-page document, which GAO found to lack suf¿cient detail for
  effective interagency planning and oversight.79




34 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                 SECTION III – RECONSTRUCITON
                                                                          EXECUTIVE
                                                                              FUNDS SUMMARY
                                                                                    ANALYSIS




           SECTION III – RECONSTRUCTION FUNDS ANALYSIS

Introduction

In its ¿rst Quarterly Report, SIGAR presented a number of graphs depicting allocations,
obligations and disbursements in various reconstruction program areas. The most notable
aspect of this data was the signi¿cant disparity between funds allocated and dollars actually
disbursed since FY 2005. SIGAR has not conducted an audit to examine the reasons behind
this occurrence, but spoke with representative agencies to gain an understanding of the reality
behind the numbers. This section presents an initial assessment of common themes behind
the disparities between appropriated and unexpended funds and the potential implications to
SIGAR.

SIGAR’s objective is to present the different accounts into which reconstruction funds are sub-
allocated, and to establish a basis for deeper analysis in future reports. SIGAR will closely
coordinate with the agencies responsible for these funds as it continues to examine the various
methods of fund distribution and oversight that exist throughout Afghanistan reconstruction
efforts.

Depiction of Reconstruction Funds

The graph below depicts reconstruction funds appropriated to U.S. government agencies from
2001 to the present.




                                Figure 2 - Funding by Agency80


                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 35
EXECUTIVE
SECTION IIISUMMARY
            – RECONSTRUCTION FUNDS ANALYSIS




  The following chart demonstrates the percentage of funds allocated to each agency since FY
  2001.




                    Figure 3 - Total Amounts Appropriated since 2001 by Agency81

  As indicated in the chart above, DoD was appropriated by far the largest portion of funds in the
  Afghan theater, receiving 59 percent of U.S. appropriated funds since 2001. Major increases
  in DoD spending are due to the security assistance requirement for the development of the
  Afghanistan National Army and the Afghanistan National Police.




36 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                Table 11, provided below, illustrates U.S. funds appropriated to Afghanistan reconstruction efforts per year as they
                                                                pertain to the ¿ve fundamental objectives of the Foreign Assistance Framework. Each major program is listed
                                                                by its funding program and its corresponding program objective. All funding data presented in this section was
                                                                provided by the Afghanistan Interagency Bi-monthly Fund Status Review Group.82




                                                                   Table 11 - U.S. Funds Appropriated to Afghanistan Reconstruction Efforts per Year by Framework Objective
                                                                                                                                                                                       SECTION III – RECONSTRUCITON
                                                                                                                                                                                                                EXECUTIVE ANALYSIS
                                                                                                                                                                                                                    FUNDS SUMMARY




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 37
EXECUTIVE
SECTION IIISUMMARY
            – RECONSTRUCTION FUNDS ANALYSIS




  Table 12 below will serve as a basis for more comprehensive analysis of ¿rst level sub-
  accounts by SIGAR; subsequent reports will build upon this analysis. De¿nitions of acronyms
  used in this table can be found in Appendix 5.




                            Table 12 - Agency Sub-Allocations by Program



38 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                 SECTION III – RECONSTRUCITON
                                                                          EXECUTIVE
                                                                              FUNDS SUMMARY
                                                                                    ANALYSIS




The following table illustrates major funding provided by the international donor community
to Afghanistan reconstruction efforts from 2001-2009. The donations shown include funds
provided by major donor countries and organizations, such as the UN, World Bank, European
Commission, and Asian Development Bank, among others. The status of funds appropriated is
captured in the follow chart. This includes every ¿rst level sub-allocation account used in the
Afghanistan reconstruction effort since 2001. All agency titles are referenced in Appendix 5.




    Table 13 - General Overview Sources of Funds (in millions) as of September 30, 2008




                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 39
EXECUTIVE
SECTION IIISUMMARY
            – RECONSTRUCTION FUNDS ANALYSIS




                 Table 14 - Status of Reconstruction Funds Appropriated since 2001



40 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                     SECTION III – RECONSTRUCITON
                                                              EXECUTIVE
                                                                  FUNDS SUMMARY
                                                                        ANALYSIS




Table 14(cont) - Status of Reconstruction Funds Appropriated since 2001



                          Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 41
EXECUTIVE
SECTION IIISUMMARY
            – RECONSTRUCTION FUNDS ANALYSIS




  Unexpended and Unobligated Appropriated Funds

  As shown in table 15 below, the total amount of unexpended appropriated funds is $5.625
  billion, or 17% of the total funds appropriated since 2001. DoD, with support from the
  Department of Justice, accounts for $2.238 billion, or 11% of its program objective. State
  accounts for $816.1 million, or 44%, while USAID accounts for $1.862 billion, or 30% of
  its program objectives to date. Humanitarian Assistance contributions by USDA and the
  Department of Treasury have been fully expended and it has been indicated to SIGAR that
  funds may have been allocated from a global appropriation for refugees/internally displaced
  persons to Afghanistan, which is a potential reason for why the disbursements are higher
  than cumulative appropriations.83 Program Support dollars from all agencies account for the
  remaining $784.4 million, or 52% unexpended in that program objective. Agencies associated
  with Program Support funds include DoD, State, USAID, Justice, Treasury, USDA, and the FBI.




             Table 15 - Cumulative Unexpended and Unobligated Appropriated Funds84




42 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                 SECTION III – RECONSTRUCITON
                                                                          EXECUTIVE
                                                                              FUNDS SUMMARY
                                                                                    ANALYSIS




As illustrated in Table 16, provided below, the percentage of unexpended funds rose sharply
after 2005. The total amount of unexpended appropriated funds remains at $5.625 billion,
but the percentage of total unexpended appropriations is 30% during this period. DoD, with
minimal support from Justice, rose to 16%; State to 78%; and USAID to 64% of the respective
program objectives. Approximately $798.4 million, or 94%, of Program Support dollars remain
unexpended or unobligated.




          Table 16 - Unexpended and Unobligated Appropriated Funds since 200685

Since 2003, agencies have consistently reported that spending has been delayed by the
following issues:

   •   Almost none of the equipment and materials needed are available locally

   •   Demining of key locations

   •   Increased security incidents

   •   Imported equipment and materials held by neighboring country customs authorities

   •   The onset of inclement weather affecting the ability to achieve the accelerated goals

SIGAR has received information suggesting that the following reason may contribute to
spending delays:

   •   Afghan holidays

   •   Afghan National Army commanders demanding contractor perform work outside the
       scope of the original contract

   •   Contractor delays in ¿lling out the Synchronized Pre-deployment and Operational
       Tracker, a DoD program for tracking contractors




                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 43
EXECUTIVE
SECTION IIISUMMARY
            – RECONSTRUCTION FUNDS ANALYSIS




      •   Contractor delays in getting Defense Base Act Insurance

      •   Contractor having issues with locals when attempting to establish a mobilization camp

      •   Delays due to ¿eld engineer inexperience

      •   End user or customer making changes after contract award but prior to contractor
          starting work

      •   Land disputes

      •   Mobilization efforts not being executed in a timely manner

      •   Re-solicitations due to high bids over programmed amounts

      •   Security issues

      •   Unreliable subcontractor

  SIGAR will examine the reasons why funds remain unobligated and unexpended.




44 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                SECTION IV – SIGAR POTENTIAL
                                                                           EXECUTIVE
                                                                             ASSESSMENT
                                                                                     SUMMARY
                                                                                        AREAS




         SECTION IV – SIGAR POTENTIAL ASSESSMENT AREAS

Areas of Review

SIGAR has identi¿ed three main areas of review for the coming year:

   •   Assessments of the internal controls and accountability and performance of the major
       contracting instruments, by U.S. entity (e.g. USAID, INL, CJTF-101, and CSTC-A)

   •   Assessments of the internal controls and accountability of key Afghan ministries

   •   Reviews of PRTs’ effectiveness and management

SIGAR Oversight Methodologies

SIGAR’s oversight efforts have ¿ve principal objectives:

   1. To improve management and accountability over U.S. appropriated and other funds
      made available that are obligated and/or expended by U.S. and Afghan agencies and
      their contractors

   2. To prevent fraud, waste, and abuse by identifying weak internal controls and
      investigating potential corruption and other wrongdoing

   3. To improve the effectiveness of the overall reconstruction stragtegy and its component
      programs

   4. To provide accurate and balanced information, observations, and recommendations

   5. To otherwise advance U.S. interests in reconstructing Afghanistan

SIGAR has three interrelated oversight tools—audits, inspections, and investigations—that
collectively will address these objectives.

   1. Audits are systematic examinations of evidence, performed using generally accepted
      government auditing standards as prescribed by the Comptroller General. (These
      are often referred to as “Yellow Book” standards.) By conducting audits according
      to these standards, SIGAR will enhance the credibility of its ¿ndings, conclusions,
      and recommendations. Almost all of SIGAR’s audits will be performance audits that
      assess the economy, ef¿ciency, effectiveness, and results of programs and operations.
      Performance audits will address a wide range of issues, including broad program
      effectiveness as well as more focused contract issues.




                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 45
EXECUTIVE
SECTION IVSUMMARY
          – SIGAR POTENTIAL ASSESSMENT AREAS




      2. Inspections will address many of the same issues as audits. Inspections are well suited
         for faster responses to allegations received through the hotline or other sources, as
         inspections can quickly determine if there is substance to an allegation and how the
         allegation can best be addressed. In addition, inspections produce evaluations of
         ongoing and completed infrastructure projects, as well as activities at selected locations,
         where inspectors can assess the project or activity to identify areas of non-compliance
         that need to be addressed. Inspections will also initiate immediate corrective actions
         when appropriate in order to ensure compliance and assist agencies and organizations
         in meeting legal and reporting requirements.

      3. Investigations review instances of potential corruption, illegal activity, or other
         wrongdoing in order to provide directing authorities with a sound basis for decisions and
         actions. Investigations will develop cases for subsequent prosecution by appropriate
         authorities as required.

  SIGAR staff conducting audits, inspections, and investigations will closely coordinate their
  actions and activities. SIGAR anticipates that investigations will be based in part on leads
  developed by audit and inspection teams. Audit and inspection staff will work to provide
  evidence to investigations staff to enable successful prosecutions. Furthermore, selection of
  issues to be audited will be made in part based on the ¿ndings of inspections. The Inspector
  General and staff will make decisions on a case by case basis as to what oversight tool or
  combination of tools is most appropriate.

  As it continues its oversight efforts, SIGAR will:

      •   utilize its authority to work among multiple U.S. agencies;

      •   complement the past and ongoing work of other Inspectors General and of the GAO;

      •   conduct broadly-scoped performance audits and inspections, which are likely to result
          in recommendations for improved program implementation; and

      •   conduct more narrowly focused reviews, which are designed to identify instances of
          weak internal controls and the ineffective use of funds, including potential waste, fraud,
          and abuse.

  When audits uncover instances of potential fraud, SIGAR will recommend actions to eliminate
  or reduce the chances for a reoccurrence of the issue. In addition, evidence will be turned over
  to the investigations staff of SIGAR for further action.




46 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                 SECTION IV – SIGAR POTENTIAL
                                                                            EXECUTIVE
                                                                              ASSESSMENT
                                                                                      SUMMARY
                                                                                         AREAS




Through its audits and inspections, SIGAR will provide information on whether programs are
achieving their objectives. This will help to establish an environment that discourages corruption
and promotes accountability in both U.S. programs and the Afghan institutions that receive U.S
funds.

Oversight Survey Background

Similar to the baseline of oversight reviewed in Section II of this report, an Afghanistan
contracting survey is necessary to understand the landscape of reconstruction from an internal
control and performance perspective. In order to begin this work, SIGAR intends to survey the
largest contracts of each major reconstruction entity (e.g. USAID, INL, CSTC-A, and CJTF-
101) and, in phases, progress from examining the internal controls to the performance of
each program. The completion of this audit survey will lead to other, complementary audits,
inspections, and investigations, as required.

The Assistant Inspectors General for Audits and Inspections will, through consultations with
program managers in Afghanistan and headquarters and with the interagency audit community,
begin initial key audits and inspections. This is expected to be initiated in the second quarter of
FY 2009. SIGAR efforts may include the following:

   •   Review of reconstruction strategies and resourcing

   •   Applicability of lessons learned in Iraq for reconstruction in Afghanistan

   •   Assessments of controls and accountability within key Afghan ministries (Finance
       Ministry and security ministries) to identify weaknesses and recommend actions that
       Afghan of¿cials, supported by U.S. programs, can take to mitigate the weaknesses

   •   Assessment of current energy infrastructure in relation to U.S. reconstruction funds
       expended since 2004

   •   Assessments of interagency efforts to develop and strengthen key government sectors,
       such as the justice system and rule of law, in accordance with ANDS

   •   Audits and inspections of the use of CERP funds utilized by PRTs, including
       assessments of internal controls and accountability mechanisms

   •   Comparative assessments of how various U.S. agencies monitor the use of funds to
       identify best practices and weak links

   •   Examinations of unobligated funds and unexpended obligations




                                       Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 47
EXECUTIVE
SECTION IVSUMMARY
          – SIGAR POTENTIAL ASSESSMENT AREAS




      •   PRT assessments

      •   Surveys of the largest reconstruction contracts to identify speci¿c contracts and
          subcontracts

  The list of potential SIGAR efforts will be adjusted after initial ¿eld visits are completed.

  Provincial Reconstruction Teams

  Section II of this report reveals certain gaps in oversight. PRTs are seen as a critical
  component within Afghanistan reconstruction. As multi-agency entities, PRTs inherently impede
  the oversight attempts of single-agency oversight organizations. SIGAR is uniquely situated to
  cross all agency lines and assess and evaluate key components of PRT functionality, including
  command and control, common strategy, common metrics, adequate resourcing, and internal
  controls of associated contracting.

  The following information on PRTs serves as an example of one of the areas on which SIGAR
  will focus.

  History

  PRTs are joint civil-military units designed to aid in the reconstruction and security of
  Afghanistan by extending the authority and inÀuence of the GIRoA. PRTs combine a military
  component with a civilian element, thus allowing civilians to carry out reconstruction efforts
  in unsecure areas. PRTs were originally implemented in Afghanistan during OEF, when U.S.
  forces set up Coalition Humanitarian Liaison Cells, staffed with Army Civil Affairs soldiers, to
  respond to humanitarian concerns and implement small reconstruction projects.86 In late 2002,
  these cells were augmented with the creation of the ¿rst PRTs; the new teams contained
  both robust force protection and staff from U.S. government agencies. The United States
  established its ¿rst PRT in Gardez in 2002 and subsequent PRTs in Bamian, Kondoz, Mazar-
  e-Sharif, Kandahar, and Herat in early 2003.87 One of the original goals of PRTs was to extend
  the inÀuence of the Afghan central government. As PRTs have grown more established, their
  goals have expanded to include strengthening local governance and community development.

  As ISAF extended its authority in Afghanistan in 2003, it also began establishing PRTs, creating
  8 between 2003 and 2006. During the same period, OEF forces created 17 additional PRTs. 88
  As some U.S. PRTs grew more established, the United States began handing over command
  to its Coalition and ISAF partners. The transfer of all OEF PRTs to ISAF control was completed
  on October 5, 2006, when ISAF assumed command of eastern Afghanistan.89 Currently, 14
  countries lead a total of 26 PRTs in Afghanistan, with the United States serving as the lead
  nation of 12 teams.90 For a map of PRT locations, see Figure 4; for a complete list of current
  PRTs and their lead nation, see Table 17.




48 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                 SECTION IV – SIGAR POTENTIAL
                                            EXECUTIVE
                                              ASSESSMENT
                                                      SUMMARY
                                                         AREAS




Figure 4 - Map of PRT Locations91




Table 17 - List of PRT Locations92




       Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 49
EXECUTIVE
SECTION IVSUMMARY
          – SIGAR POTENTIAL ASSESSMENT AREAS




  Common Strategy

  As PRTs were created and supported by the United States and its NATO and Coalition partners,
  several distinct models of PRTs developed: the American, the British, and the German model
  (see Table 18).




                                       Table 18 - PRT Models93

  The capabilities and political priorities of contributing countries heavily inÀuence a PRT’s work
  and functionality.94 The general guidance provided by the ISAF PRT Handbook allows lead
  nations the Àexibility to adapt a PRT to local conditions. The 2006 Interagency Assessment
  of PRTs in Afghanistan discussed the bene¿ts of this Àexibility, but called it a “double-edged
  sword”: the assessment described confusion caused by lack of guidance “about what a PRT
  is, what it ought to do, and what its limits should be.” A report by the U.S. Institute of Peace
  found that lack of speci¿city in PRT guidelines allowed lead nations to interpret the guidelines
  and conduct operations according to national interest and local conditions, thus resulting in a
  disjointed, ad hoc approach to security and reconstruction in Afghanistan.95

  Each lead nation determines the strategy for its PRT. The projects undertaken and funded by
  PRTs are decided unilaterally by each PRT. In the ANDS, the Afghan government encourages
  PRTs to align their efforts with the priorities and processes established by that document and
  to report all activities to the government, so as to avoid duplication of efforts. However, an
  analysis of PRTs by the Woodrow Wilson School of Public and International Affairs concluded
  that “the goals and objectives of the vast array of PRTs have been neither clearly articulated
  nor standardized.”96

  One of the original goals of the PRT system was to extend the inÀuence of the Afghan central
  government.97 As PRTs have grown more established, their goals have expanded to include
  community development and strengthening local governance. In April 2008, the U.S. House of
  Representatives Armed Services Committee’s Subcommittee on Oversight and Investigations
  reported that neither DoD nor State had to establish a long term strategy, mission, and
  objectives for each United States-led PRT in Afghanistan. The June 2008 DoD Report on




50 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                 SECTION IV – SIGAR POTENTIAL
                                                                            EXECUTIVE
                                                                              ASSESSMENT
                                                                                      SUMMARY
                                                                                         AREAS




Progress toward Security and Stability in Afghanistan provided the following mission statement
for U.S. PRTs:

   “Provincial Reconstruction Teams will assist the Islamic Republic of Afghanistan
   to extend its authority, in order to facilitate the development of a stable and secure
   environment in the identi¿ed area of operations, and enable security sector reform and
   reconstruction efforts.”

DoD stated that U.S. PRTs operate under the general guidance provided by ISAF and outlined
four “key lines of operation” to guide the speci¿c activities of PRTs:

   •   increase effectiveness of legitimate authorities;

   •   decrease effectiveness of illegitimate authorities;

   •   increase legitimacy of legitimate authorities; and

   •   decrease legitimacy of illegitimate authorities.

DoD’s report described PRTs as part of its approach to counterinsurgency in Afghanistan. PRTs’
efforts mentoring sub-national government of¿cials promotes good governance, which in turn
strengthens local respect for the rule of law.

Command and Control

All PRTs in Afghanistan are under ISAF control, but each PRT is under the tactical control of its
lead nation; a PRT’s lead nation determines its size, composition, and mission.98 For example,
all U.S.-led PRTs in Afghanistan are coordinated by CJTF-101, the RC East, except for PRT
Zabul, which also reports to RC South with the arrival of the U.S. Deputy Commanding General
for Stability. Each Regional Command reports to the Commander of ISAF. Additionally, U.S.
civilian PRT personnel, who do not fall under military command, report to their respective U.S.
government agency at Embassy Kabul for administrative matters.

All PRTs also receive policy guidance from the Kabul-based PRT Executive Steering Committee
(PRT ESC), which is co-chaired by the ISAF Commander (who is dual-hatted as Commander
USFOR-A) and the Afghan Minister of the Interior, and includes the U.S. Ambassador to
Afghanistan, the European Union Special Representative, ambassadors of troop-contributing
nations, the Afghan Minister of Finance, the Special Representative of the Secretary-General,
and the NATO Senior Civilian Representative. The PRT ESC delegates operational issues to a
subordinate PRT Working Group, which includes the UN and relevant embassy representatives.
For a depiction of the PRT Command and Control structure in Afghanistan, see Figure 5.




                                       Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 51
EXECUTIVE
SECTION IVSUMMARY
          – SIGAR POTENTIAL ASSESSMENT AREAS




                                                                NATO             DoD


                                                                             U.S. CENTCOM



                                                               ISAF COM      USFOR-A COM




                   Regional              Regional                 Regional      Regional    Regional
                   Command               Command                  Command       Command     Command
                   CAPITAL                NORTH                    SOUTH         WEST        EAST


                                                                                            Task Forces




                      Organizations led by the United States
                      Organizations led by Non-U.S. countries in ISAF
                      PRT led by the United States
                      PRT led by Non-U.S. countries in ISAF




                                       Figure 5 - PRT Command and Control99

  With the exception of the Panjshir PRT, U.S. PRTs in Afghanistan are led by military personnel;
  however, the military lead does not command the non-DoD civilian component. In 10 of the
  12 U.S.-led PRTs, the military lead works with a 4-person interagency management team to
  conduct operations. In most PRTs, the three civilians on the interagency management team
  are the only U.S. civilians in the PRT; in one U.S. and two international-led PRTs there is an
  additional USAID representative who is responsible for the Alternative Development Program.
  For an organizational chart of U.S. PRTs, see Figure 6.




52 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                                SECTION IV – SIGAR POTENTIAL
                                                                                                           EXECUTIVE
                                                                                                             ASSESSMENT
                                                                                                                     SUMMARY
                                                                                                                        AREAS




                                                                             Regional
                                                                             Command



                                                                             Task Force

                                            State, USAID,
                                                USDA


                                                                    •   PRT commander
                                                                    •   State representative
                                                                    •   USAID representative
                                                                    •   USDA representative
                                        Leadership Team




                                                                        PRT deputy commander




                                                                                                            Civil affairs,
                      Administration/                  Combat service                     Security
                                                                                                           engineers, and
                        operations                        support
                                                                                                           military police


                 Military Staff

                       Civilian officials report to home agencies

                       Source: GAO Analysis of Department of Defense, State, USAID and USDA information.




                        Figure 6 - Structure of U.S. led PRTs in Afghanistan100

U.S. PRTs are generally comprised of between 50 and 100 personnel, including 3 to 5 U.S.
government civilians and/or contractors. U.S. PRTs are typically composed of a military police
unit, a psychological operations unit, an explosive ordinance/demining unit, an intelligence
team, medics, a force protection unit, and administrative and support personnel. Some PRTs
also include four to ¿ve Afghan citizens serving as interpreters, representatives from the Afghan
Ministry of Interior, or additional USAID staff.

Each U.S. PRT is authorized to include one staff member each from State, USAID, and USDA;
State reports that all positions but one are currently ¿lled (see Table 19). The Oversight and
Investigations Subcommittee of the House of Representatives’ Armed Services Committee has
reported that both civilian agencies and DoD have dif¿culty ¿nding quali¿ed individuals with
relevant skills and experience to staff PRTs.101




                                                            Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 53
EXECUTIVE
SECTION IVSUMMARY
          – SIGAR POTENTIAL ASSESSMENT AREAS




             Table 19 - Civilian and Military Personnel in U.S.-led PRTs in Afghanistan102

  The United States also has 20 U.S. government civilians serving in international-led PRTs; as
  of January 2009, 11 USAID and 9 State personnel served in non-U.S. PRTs.103 Additionally,
  State, USAID, and USDA have also assigned 12 personnel to the U.S. Embassy and Mission in
  Kabul to support PRTs.

  National Security Presidential Directive 44 (December 2005) explicitly tasked the State as the
  lead agency in coordination of U.S. post-conÀict reconstruction efforts. However, DoD Directive
  3000.05 (November 2005) declares stability operations “a core U.S. military mission,” of “priority
  comparable to combat operations.” Both agencies, in addition to USAID, have speci¿c interests
  and authorities in Afghanistan. Interagency coordination of PRT-related activities occurs at
  ¿eld and country levels, but executive-level planning in Washington is generally “stove-piped”
  by agency. There is no standing, executive-level interagency organization that speci¿cally
  coordinates or oversees interagency PRT activities.104

  Resourcing

  Operating costs for PRTs are the responsibility of the lead nation. For U.S.-led PRTs, DoD funds
  nearly all operating costs, such as security, life support, sustainment, and housing. According to
  DoD, PRT costs are not tracked separately from other operating costs in Afghanistan, and the
  U.S. government civilian agencies contributing personnel to U.S.-led PRTs do not reimburse
  DoD for its support of their employees.105 As of August 2007, U.S. government yearly spending
  was approximately $20 million per PRT in Afghanistan.106

  There is no Afghanistan-wide funding stream for PRT reconstruction efforts; funding for PRT
  operations is also coordinated by the lead nation. U.S.-led PRTs originally utilized funds
  from DoD’s Overseas Humanitarian Disaster and Civic Aid (OHDACA) budget. Currently,



54 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                   SECTION IV – SIGAR POTENTIAL
                                                                              EXECUTIVE
                                                                                ASSESSMENT
                                                                                        SUMMARY
                                                                                           AREAS




U.S.-PRTs receive funding from the Economic Support Fund (ESF) and DoD’s CERP. GAO
has recommended increased congressional oversight of funds used by PRTs, and according
to an April 2008 report, the Oversight and Investigations Subcommittee of the House of
Representatives’ Armed Services Committee has requested that GAO produce a study of PRT
cost data.107

Much of PRT spending in Afghanistan has been directed towards Quick Impact Projects (QIPs),
short-term, small-scale projects designed to “extend the reach and inÀuence of government
throughout the provinces and to create a climate of improved freedom and economic activity,”
as part of USAID’s PRT Quick Impact Program.108 According to USAID, the majority of QIPs
have been small infrastructure projects, such as irrigation systems, clean water supply, road
improvements, small power systems, and the construction or renovation of government
buildings, schools, and clinics; QIP funds have additionally been used to support government
capacity building, job placement, micro-¿nance, gender-related activities, and media projects.109

In October 2006, USAID began a successor program to QIP, the Local Governance and
Community Development (LGCD) Project, and in September 2007, LGCD replaced QIP as
the primary vehicle for ESF aid disbursement in Afghanistan. LGCD continues to fund small
infrastructure programs as QIP did, but its emphasis has shifted to strengthening the capacity
of local governments, encouraging active community participation in local governance, and
addressing development issues contributing to local instability and support for insurgency.110

CERP funding was created by the Congress in PL 108-106 as a source of immediate funding
for military commanders in Iraq and Afghanistan in order to respond to “urgent humanitarian
relief and reconstruction requirements” and is the only programmatic source of U.S. PRT
funding.111 The DoD Financial Management Regulation Volume 12, Chapter 27, stipulates the
lawful uses of CERP funds, including the following areas: water and sanitation; food production
and distribution; agriculture; electricity; healthcare; education; telecommunications; economic,
¿nancial and management improvements; transportation; rule of law and governance;
irrigation; civic cleanup activities; civic support vehicles; repair of civic and cultural facilities;
and other urgent humanitarian or reconstruction projects. Commanders are prohibited from
using CERP funds for the direct or indirect bene¿t of U.S. personnel; entertainment; weapons
buy-back programs, or other purchases of ¿rearms or ammunition; reward programs; removal
of unexploded ordnance; duplication of services available through municipal governments; or
salaries of Afghan military or civilian government personnel. Projects of up to $25,000 can be
approved by commanders; CERP projects or activities that require funding above $25,000 must
be approved by the commander’s superiors.

Effectiveness

The April 2008 Oversight and Investigations Subcommittee of the House of Representatives’
Armed Services Committee report on PRTs stated that though there is anecdotal evidence of
the positive impacts of PRTs in Afghanistan, there has been no standardized measurement of



                                         Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 55
EXECUTIVE
SECTION IVSUMMARY
          – SIGAR POTENTIAL ASSESSMENT AREAS




  the effectiveness of the PRT program. Neither State nor DoD has standardized procedures for
  evaluating PRTs’ progress in meeting U.S. strategic goals. The report further indicated that no
  metrics have been devised to provide data on the quality, impact, and usefulness of PRTs and
  their efforts. While PRTs have collected data such as projects completed or dollars spent, these
  ¿gures are inadequate to determine a PRT’s effectiveness.

  As of January 2009, State has reported that U.S. PRTs in RC-East periodically report
  progress on districts and provinces across three lines of operation (governance, security, and
  development).112 These reports are briefed to the Brigade Task Forces and then to the RC-East
  Commanding General and U.S. embassy staff. These reports do not disaggregate the effects
  of PRT efforts but provide a broader assessment of the provinces and districts.

  State additionally reports that there are currently efforts by RC-EAST, ISAF HQ, CSTC-A,
  USFOR-A, and U.S. Embassy agencies to broaden these Commanders Operational
  Assessment Briefs to enhance civilian agencies assessments and input. Greater emphasis is
  also being placed on generating better “outcome” indicators as current indicators more heavily
  focus on “outputs” (e.g., projects completed, dollars spent, etc.).113

  As Robert Perito, Senior Program Of¿cer at the United States Institute of Peace’s Center for
  Post-ConÀict Peace and Stability Operations, stated in his testimony to Congress on October
  18, 2007, “without agreed objectives, it's dif¿cult to judge effectiveness. There is need for a
  separate, agreed set of objectives for PRTs and an agreed set of measurements for measuring
  their performance. Absent a means of determining whether PRTs are effective, it's dif¿cult to
  determine whether alternative mechanisms might better achieve our purposes.”

  Comparison with Iraq PRTS

  While PRTs in Iraq and Afghanistan have similar missions, their structures greatly vary. Though
  former U.S. Ambassador to Iraq Zalmay Khalilzad is credited as introducing PRTs to Iraq from
  his previous assignment as Ambassador to Afghanistan, Iraq PRTs bear little resemblance to
  their Afghan counterparts.114 The PRT concept was not simply transferred from Afghanistan
  to Iraq, but was reconceived to ¿t the situation on the ground. The chief differences between
  the two PRT programs are command and composition. U.S.-led PRTs in Afghanistan are
  commanded by military personnel, and the security component is a part of the team. In Iraq,
  U.S. PRTs are led by a Foreign Service Of¿cer, and the PRT’s security element is not part of
  the PRT. The U.S. model for PRTs in Afghanistan consists almost entirely of military personnel,
  with only a small civilian element, whereas PRTs in Iraq utilize a much larger number of U.S.
  government civilians. For an overview of the differences between Afghanistan and Iraq PRTs,
  see Table 20.




56 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                SECTION IV – SIGAR POTENTIAL
                                                                           EXECUTIVE
                                                                             ASSESSMENT
                                                                                     SUMMARY
                                                                                        AREAS




                       Table 20 - Afghanistan and Iraq PRT Comparison


Summary

In the coming months, SIGAR plans to focus on the previously-discussed areas of SIGAR
contract auditing and PRT functionality. To date, SIGAR is not in a position to predict timelines
and dates of products. With the standup of the Afghanistan of¿ce, SIGAR can begin to
complement efforts from on-site and regional locations to move forward in these efforts.

As initial efforts in the area of PRTs, SIGAR has made visits to ¿ve PRTs. Each visit has
included a review of PRT strategy, command and control, and resourcing, as well as meetings
with local governors to understand the interface of PRTs with local governance objectives and
challenges. These efforts will intensify as the permanent SIGAR Afghanistan Of¿ce becomes
fully-operational.




                                       Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 57
EXECUTIVE
SECTION V –SUMMARY
            SIGAR UPDATES




                                        SECTION V – SIGAR UPDATES

  SIGAR Organizational Design

  SIGAR is structured to provide timely and comprehensive oversight products regarding
  reconstruction efforts in Afghanistan. SIGAR D.C. consists of sections that provide information
  to the SIGAR; conduct audits, inspections, and investigations; and produce required reports
  on SIGAR fact-¿nding. Allegations of fraud, waste and abuse reach the SIGAR through a
  variety of methods, most notably a hotline system that now operates both in the United States
  and in Afghanistan. Due to the regular rotation of personnel in Afghanistan, it is important to
  maintain a vibrant team of auditors, inspectors, and investigators, both in the United States
  and Afghanistan, to utilize the available information. SIGAR's organizational design is depicted
  below.


                                                              CONGRESS
                                                                 CONGRESS

                     Secretary of State                                                   Secretary of Defense
                                  Secretary of State                                  Secretary of Defense


                                                        SIGAR Inspector General
                                                            SIGAR Inspector General



                                                        Deputy Inspector
                                                           Deputy Inspector General
                                                                            General
                                                                                              Principal Deputy Deputy
                                                                                                     Principal
                                                                                             Inspector  General
                                                                                                    Inspector General
                      General                  Senior
       General        Counsel
                                  Senior Advisor
       Counsel                    Advisor
                                                                                      Afghanistan Forward Operations,
                                                                                           Afghanistan
                                                                                      Investigation,        Forward
                                                                                                     Inspections & AuditOperations,
                                                                                          Investigation, Inspections & Audit
                             SIGAR
                    SIGAR Chief of Staff
                 Chief of Staff                                                                Information
                                                                                               Management
                                Operations                                                              Information
                                                                                                Directorate
                                                                                                       Management
                  Operations                                                                            Directorate



                         Assistant Inspector                  AIG Inspections &              Assistant Inspector
                           General Audits                     Evaluations Hotline           General Investigations

          Assistant Inspector                              AIG Inspections &                       Assistant Inspector
            General Audits                                 Evaluations Hotline                    General Investigations



                                             Figure 7 - SIGAR Organizational Chart



58 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                      SECTION
                                                                            EXECUTIVE
                                                                              V – SIGARSUMMARY
                                                                                        UPDATES




SIGAR Afghanistan Of¿ce

The SIGAR Afghanistan Of¿ce will consist of audit, inspections, and investigations sections,
co-located at the U.S. Embassy in Kabul as well as teams at three other locations around the
country. The initial elements of this permanent SIGAR Afghanistan Of¿ce deployed in January
2009. The of¿ce is led by the SIGAR Principal Deputy Inspector General (PDIG) and is
expected to grow in the next four months to include three satellite of¿ces located throughout
Afghanistan. The composition of the SIGAR Afghan of¿ce is depicted below.


                                      Principal Deputy
                                       Principal Deputy
                                           SIGAR
                                            SIGAR


                  Deputy
                   Deputy




       Kabul                 Kandahar                  Bagram                  CSTC-A
        Kabul                 Kandahar                  Bagram                  CSTC-A


                      Figure 8 - Afghanistan Of¿ce Organizational Chart

In addition to audits, inspections, and investigations, another important part of the SIGAR
oversight functions in Afghanistan is a hotline intake and processing system. This hotline
will receive, record, and process complaints and allegations. Hotline staff will make initial
assessments to determine whether further action is warranted. The Afghanistan hotline
is connected to the domestic hotline and enables anyone in Afghanistan—whether a local
national, Coalition partner employee, American government employee, or contractor—to make
complaints regarding alleged fraud, waste or abuse or other improprieties to SIGAR.

SIGAR Budget

The United States Congress appropriated $2 million for fourth quarter FY 2008 and an
additional $5 million for FY 2009 from the Supplemental Appropriations for FY 2008. SIGAR
submitted its FY 2009 budget in the amount of $23.2 million. The Congress subsequently
appropriated an additional $9 million under the Consolidated Security, Disaster Assistance, and
Continuing Appropriations Act of 2009 for a total of $16 million in appropriated funds.




                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 59
EXECUTIVE
SECTION V –SUMMARY
            SIGAR UPDATES




                          Table 21 - SIGAR Funding Summary (in millions)

  While the $16 million will allow SIGAR to hire approximately 37 full time employees and fund
  support services, space, and logistical requirements, it falls short of the $23.2 million originally
  requested in order to effectively implement the of¿ce’s mandated oversight activities.

  The $16 million provided limits the detailed assessments, evaluations, and analysis necessary
  to effectively oversee the $32 billion in humanitarian and reconstruction aid provided by the
  U.S. On December 3, 2008 SIGAR formally submitted a request to the Of¿ce of Management
  and Budget for FY 2009 Supplemental funding in the amount of $7.2 million in an effort to
  address the organizations resource shortfall.

  Joint Announcement Memo

  On October 21, 2008, the SIGAR Joint Announcement memo was signed by the Deputy Under
  Secretary of the State Department and Deputy Secretary of the DoD, respectively. The memo
  acknowledged the creation of SIGAR in law and as an independent and objective Afghanistan
  oversight institution, reporting to Congress quarterly. Both Departments noted their support
  for the SIGAR. The memo included direction to subordinate departments within the agencies
  to cooperate with and support the implementation of the SIGAR. The memo is provided in
  Appendix 4.


  In this memo, the Deputy Under Secretary of the State Department and Deputy Secretary of
  the DoD indicated that,

      “All Components within the Department of State and the Department of Defense will
      provide their full cooperation and assistance to the SIGAR as it executes its mission
      to advance the oversight and accountability of reconstruction activities in Afghanistan,
      consistent with the statute.”115




60 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                        SECTION
                                                                              EXECUTIVE
                                                                                V – SIGARSUMMARY
                                                                                          UPDATES




Inspector General Reform Act of 2008

SIGAR acknowleges the signing of the IG Reform Act on October 14, 2008. As a guide for
SIGAR's future operations and authorities the act is provided at Appendix 4.

SIGAR Afghanistan Trips

SIGAR has made four trips to Afghanistan within this reporting period. During these trips,
SIGAR staff members established contacts with key Afghan government of¿cials, met with
individuals from U.S. government agencies contributing to Afghanistan reconstruction efforts,
and procured information relevant to this quarterly report. Additionally, important progress was
made in further preparing for the establishment of full-time SIGAR of¿ces in Kabul and other
locations in Afghanistan.

Key leaders with whom SIGAR of¿cers met include:

   •   Attorney General                              •   Minister of Defense

   •   Auditor General of the Control and            •   Ministry of Defense Inspector General
       Audit Of¿ce
                                                     •   Minister of Education
   •   Chief Administrator of the Supreme
       Court of Afghanistan                          •   Minister of Energy

   •   Chief Justice of the Supreme Court of         •   Minister of Finance
       Afghanistan
                                                     •   Minister of Interior
   •   Director of the Independent Directorate
       of Local Governance                           •   Minister of Justice

   •   Minister of Agriculture                       •   Minister of Public Health

   •   Minister of Counternarcotics




                                       Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 61
EXECUTIVE
SECTION V –SUMMARY
            SIGAR UPDATES




  In addition, the SIGAR team also met with the following American agency representatives:

      •   Commander, CSTC-A                               •     U.S. Ambassador to Afghanistan

      •   Commander, ISAF                                 •     U.S. Army     Criminal   Investigation
                                                                Command
      •   DEA
                                                          •     U.S. Embassy, Management Counselor
      •   Defense Attaché Of¿ce
                                                          •     U.S. Embassy,     Regional   Security
      •   Defense Criminal Investigative Service                Of¿cer

      •   Justice, Senior Legal Advisors                  •     USAID

      •   FBI                                             •     USAID, Of¿ce    of    Democracy   and
                                                                Governance
      •   Mission Director, USAID
                                                          •     USAID, Regional IG
      •   State, INL
                                                          •     USACE, PRT Director
      •   State, PRT Director
                                                          •     USFOR-A, POLMIL Director
      •   Principal Assistant Responsible        for
          Contracting, Afghanistan


  The team has also met with several Coalition partners, including:

      •   British Embassy, Assistant Director of Counternarcotics, British Embassy

      •   Deputy Special Representative of the Secretary-General, United Nations Assistance
          Mission to Afghanistan


  SIGAR teams have visited the following locations:

      •   Counternarcotics Justice Center

      •   Gardez PRT

      •   Khost PRT

      •   Kajaki Dam



62 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                      SECTION
                                                                            EXECUTIVE
                                                                              V – SIGARSUMMARY
                                                                                        UPDATES




   •   Lashkar Ghar PRT

   •   Mazar-e-Sharif PRT

   •   Tarin Kowt PRT

SIGAR Hotline

SIGAR has established a hotline for the reporting of potential waste, fraud and abuse. In
order to collect information from the general public, U.S. government employees, contractors
and locally employed Afghan staff, SIGAR’s hotline has a dedicated toll-free U.S.-based 800
telephone number, toll-free fax number, Afghan phone number, U.S. number in Afghanistan,
e-mail address, and link on the SIGAR website. To submit an of¿cial claim, users can email
hotline@sigar.mil or visit http://www.sigar.mil/hotline/Default.aspx.

In addition to publication of the hotline’s information on the SIGAR website, a hotline poster
has been created. The SIGAR hotline poster was created in English for distribution in the U.S.
to U.S. government agencies, organizations, and contractors involved in reconstruction efforts
in Afghanistan. A second, tri-lingual poster (in Dari, Pashtu, and English) will be created for
distribution throughout Afghanistan. In addition, announcements about the hotline on Afghan
television and radio are forthcoming.

SIGAR Coordination Efforts

PL 110-181 mandates SIGAR serve as a coordinator of efforts within oversight responsibilities
in Afghanistan. Considering the magnitude of the reconstruction effort, oversight is crucial to
the ef¿ciency and effectiveness of disbursement of U.S. taxpayer funds and contract execution
and management in Afghanistan. SIGAR has also committed to becoming a signatory to the
2009 Consolidated Audit Plan for Southwest Asia at the next available opportunity (April 2009).

SIGAR understands the critical importance of serving in a coordinating role for the diverse
oversight programs related to Afghanistan reconstruction. In order to conduct the of¿ce’s
oversight and coordination responsibilities, SIGAR’s senior staff have met with senior of¿cials
from key oversight entities, including:

   •   State OIG senior staff

   •   USAID OIG senior staff

   •   DoD IG senior staff

   •   DoD’s Director of the Defense Hotline, the hotline for all of DoD potential complaints,
       incidents and inquiries



                                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 63
EXECUTIVE
SECTION V –SUMMARY
            SIGAR UPDATES




      •   GAO senior staff

      •   Special Agent in Charge of the U.S. Army’s Criminal Investigation Command Unit
          in Afghanistan

  SIGAR intends to continue in these coordination efforts. SIGAR will schedule meetings with the
  Of¿ce of Inspector General for CENTCOM and USAID’s Regional IG for Afghanistan. SIGAR
  staff deployed to Afghanistan will also engage with U.S. government IG staff.

  SIGAR Data Call

  In February 2009, SIGAR will request data from appropriate agencies to compile to support the
  next report to Congress. The focus of the data call is to begin initiatives already presented in
  Sections II, III, and IV of this report. Speci¿cally requested data includes:

      •   Continued status update of all appropriations, obligations, and disbursements by
          agency

      •   Re¿ned information from DoD IG, State IG, USAID OIG and GAO on follow-up actions
          to published oversight reports of Afghanistan Reconstruction

      •   Detailed explanations by entity (USAID, INL, DoD, and State) of unobligated,
          unsubobligated, and unexpended appropriated funds for reconstruction of Afghanistan
          since 2005

      •   Listing of the amounts and award process of the largest contracts exceeding an amount
          to be determined later

      •   Listing of the largest contracts, contractors, and cooperative agreements (cumulative)
          used by each U.S. government agency and detailed sub-allocation funding data of
          major appropriated funds




64 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                          EXECUTIVE
                                                                                 APPENDICIES
                                                                                    SUMMARY




                                   APPENDICIES


Appendix 1 – Select Terms and De¿nitions

Appendix 2 – Links to Oversight Reports and Websites

Appendix 3 – Joint Announcement Memo

Appendix 4 – Inspector General Reform Act of 2008

Appendix 5 – Acronyms and Abbreviations

Appendix 6 – Endnotes




                                   Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 65
EXECUTIVE1SUMMARY
APPENDIX   – SELECT TERMS AND DEFINITIONS




                                       APPENDIX 1
                               Select Terms and Definitions


    Afghanistan Compact
     In January, 2006, 64 countries and 11 international organizations attended the London
     Conference on Afghanistan and approved the Afghanistan Compact, a political commitment
     that prescribed how the international community should contribute to Afghanistan’s
     reconstruction. The Compact established the framework for international cooperation with
     Afghanistan for the next ¿ve years. The intent of the Compact was to enable Afghanistan
     to become more self-reliant, by cooperating with the international community to create
     conditions ideal for economic and social development. Three critical and interdependent
     pillars of activity were identi¿ed by the Compact: Security, Governance (Rule of Law
     and Human Rights), and Economic and Social Development. A further cross-cutting
     component identi¿ed the necessity for the elimination of the growing narcotics industry.
    Afghanistan Freedom Support Act of 2002 (AFSA)
     The AFSA substantially increased the United States’ economic, democratic, and
     military assistance to Afghanistan. It established provisions for U.S. support to the
     objectives outlined in the Bonn Agreement and outlines the U.S. Government’s
     goals in Afghanistan to be the establishment of a democratic state inhospitable
     to international terrorism, drug traf¿cking and narcotics cultivation, at peace with
     its neighbors; and able to provide its own internal and external security.
    Afghanistan Interagency Operations Group (AIOG)
     The group provides key decision coordination for U.S. government –funded provincial
     reconstruction teams in Afghanistan. The group includes representatives from the
     Department of State, U.S. Agency for International Development, Department of
     Defense, and other agencies delivering assistance. This formal interagency committee
     provides a uniform process for making and informing the President of policy-level
     decisions and for sharing information among agencies. In Afghanistan, U.S. assistance
     is coordinated through the U.S. embassy country team, although certain funding
     processes, such as CERP, may be executed at the discretion of the commander. 116
    Afghanistan Reconstruction Trust Fund (ARTF)
     The ARTF is a multi-donor trust fund administered by the World Bank in support
     of Afghanistan's reconstruction efforts. Since its establishment in 2002, the
     ARTF has been the main source of pooled ¿nancing for the Government
     of Afghanistan’s recurrent budget, but has increasingly also supported
     priority investments in the Government’s reconstruction program.
    Afghanistan National Development Strategy (ANDS)
     Signed by President Hamid Karzai on April 21, 2008, the ANDS is Afghanistan’s
     “blueprint for the development of Afghanistan;” it contains strategies for improvements
     in security, governance, economic growth, and poverty reduction. This policy paper
     was created by the Afghan government and is based on both the UN’s Millennium
     Development Goals and the Afghanistan Compact; it also serves as Afghanistan’s



66 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                    APPENDIX 1 – SELECT TERMS
                                                                           EXECUTIVE
                                                                              AND DEFINITIONS
                                                                                     SUMMARY




 Poverty Reduction Strategy Paper. The ANDS presents the government’s vision
 for Afghanistan in the year 2020 and outlines speci¿c goals within the three pillars
 outlined in the Afghanistan Compact to be accomplished in the years 2008-2013
Appropriation
 The legal authority for federal agencies to incur obligations and to make payments out
 of the Treasury for speci¿ed purposes. Under the rules of both houses, an appropriation
 act should follow enactment of authorizing legislation. Major types of appropriation acts
 are regular, supplemental, de¿ciency, and continuing. Regular appropriation acts are
 all appropriation acts that are not supplemental, de¿ciency, or continuing. Currently,
 regular annual appropriation acts that provide funding for the continued operation of
 federal departments, agencies, and various government activities are considered by
 Congress annually. From time to time, supplemental appropriation acts are also enacted.
 When action on regular appropriation bills is not completed before the beginning of the
 ¿scal year, a continuing resolution may be enacted in a bill or joint resolution to provide
 funding for the affected agencies for the full year, up to a speci¿ed date, or until their
 regular appropriations are enacted. A de¿ciency appropriation act provides budget
 authority to cover obligations incurred in excess of available budget authority. 117
Bonn Agreement
 The Bonn Conference resulted in the establishment of a process for
 Afghanistan political reconstruction that included the adoption of a new
 constitution and called for democratic elections as part of an overarching
 agreement between various factions of the polity of Afghanistan.
Commander’s Emergency Response Program (CERP)
 CERP was designed to enable local commanders in Iraq and
 Afghanistan to respond to urgent humanitarian relief and reconstruction
 requirements within their areas of responsibility by carrying out programs
 that will immediately assist the indigenous population.
Commitment
 An administrative reservation of allotted funds, or of other funds, in anticipation of their
 obligation. For federal proprietary accounting, a commitment may also manifest an
 intent to expend assets (e.g., to provide government social insurance bene¿ts).118
Defense Contract Audit Agency (DCCA)
 The Defense Contract Audit Agency under the authority, direction, and control of the
 Under Secretary of Defense (Comptroller), is responsible for performing all contract
 audits for the Department of Defense, and providing accounting and ¿nancial advisory
 services regarding contracts and subcontracts to all DoD Components responsible for
 procurement and contract administration. These services are provided in connection
 with negotiation, administration, and settlement of contracts and subcontracts.
 DCAA also provides contract audit services to some other government agencies.
Disbursements
 Amounts paid by federal agencies, by cash or cash equivalent, during the ¿scal year
 to liquidate government obligations. “Disbursement” is used interchangeably with the
 term “outlay.” In budgetary usage, gross disbursements represent the amount of checks



                                     Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 67
EXECUTIVE1SUMMARY
APPENDIX   – SELECT TERMS AND DEFINITIONS




      issued and cash or other payments made, less refunds received. Net disbursements
      represent gross disbursements less income collected and credited to the appropriation
      or fund account, such as amounts received for goods and services provided.119
    Fiscal Year (FY)
      A period used for calculating annual ("yearly") ¿nancial statements in businesses and
      other organizations. In many jurisdictions, regulatory laws regarding accounting and
      taxation require such reports once per twelve months, but do not require that the period
      reported on constitutes a calendar year (i.e., January through December). Fiscal years
      vary between businesses and countries. The ¿scal year is the federal government’s
      accounting period. It begins on October 1 and ends on September 30. For example,
      ¿scal year 2003 began on October 1, 2002 and ended on September 30, 2003.120
    Foreign Assistance Framework
      Current U.S. support to Afghanistan reconstruction is based on the Foreign Assistance
      Framework, a matrix for funding foreign development. As set forth in the Department of
      State’s Congressional Budget Justi¿cation for 2008, the Foreign Assistance Framework
      is guided by the following ¿ve funding objectives: Peace and Security, Governing
      Justly and Democratically, Investing in People, Economic Growth, and Humanitarian
      Assistance. The Framework supports the goal of aiding in the development of
      democratic, well-governed states that respond to the needs of their people, reduce
      widespread poverty and conduct themselves responsibly in the international system.121
    International Security Assistance Force (ISAF)
      ISAF is the NATO mission in Afghanistan. ISAF’s key military tasks include
      assisting the Afghan government in extending its authority across the country,
      conducting stability and security operations in coordination with the Afghan
      national security forces; mentoring and supporting the Afghan national army; and
      supporting Afghan government programs to disarm illegally armed groups.122
    Obligations
      A de¿nite commitment that creates a legal liability of the government for the payment of
      goods and services ordered or received, or a legal duty on the part of the United States
      that could mature into a legal liability by virtue of actions on the part of the other party
      beyond the control of the United States. Payment may be made immediately or in the
      future. An agency incurs an obligation, for example, when it places an order, signs a
      contract, awards a grant, purchases a service, or takes other actions that require the
      government to make payments to the public or from one government account to another.123
    Of¿ce of Management and Budget (OMB)
      OMB's predominant mission is to assist the President in overseeing the preparation
      of the federal budget and to supervise its administration in Executive Branch
      agencies. In helping to formulate the President's spending plans, OMB evaluates the
      effectiveness of agency programs, policies, and procedures, assesses competing
      funding demands among agencies, and sets funding priorities. OMB ensures that
      agency reports, rules, testimony, and proposed legislation are consistent with the
      President's Budget and with Administration policies. In addition, OMB oversees and
      coordinates the Administration's procurement, ¿nancial management, information,



68 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                   APPENDIX 1 – SELECT TERMS
                                                                          EXECUTIVE
                                                                             AND DEFINITIONS
                                                                                    SUMMARY




 and regulatory policies. In each of these areas, OMB's role is to help improve
 administrative management, to develop better performance measures and coordinating
 mechanisms, and to reduce any unnecessary burdens on the public.124
Provincial Reconstruction Teams
 A tactic of reconstruction efforts that combines military security with State
 Department and USAID staff in the ¿eld working on reconstruction in an integrated
 fashion. These teams were designed to provide both security and reconstruction
 to regions where security concerns would prevent aid workers from operating.
Quick Impact Project (QIP)
 The purpose of Quick Impact Project program was to provide USAID of¿cers located
 at the Provincial Reconstruction Teams with the ability to implement small projects
 (over 90 percent cost less than $350,000 per project) that further the core objectives of
 stability, reconstruction, and building support for the central government of Afghanistan.
 As of August 2007 over 440 projects have been completed. The majority of these
 have been relatively small infrastructure projects, such as community irrigation
 systems, clean water supply, road improvements, small power systems, and the
 construction or rehabilitation of government buildings, schools, and clinics. In addition
 to infrastructure, QIF funds have been used to support government capacity building,
 job placement, micro-¿nance, gender-related activities, and media projects.125
Supplemental Appropriation
 Budget authority provided in an appropriations act in addition to regular or continuing
 appropriations already provided. Supplemental appropriations generally are made
 to cover emergencies, such as disaster relief, or other needs deemed too urgent to
 be postponed until the enactment of next year's regular appropriations act.126
Unobligated Balance
 Funding that has been approved or is available, but not yet committed to any
 particular purpose.127




                                     Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 69
EXECUTIVE2SUMMARY
APPENDIX   – LINKS TO OVERSIGHT REPORTS AND WEBSITES




                                        APPENDIX 2
                          Links To Oversight Reports and Websites

  State OIG

  http://oig.state.gov/




70 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                             APPENDIX 2 – LINKS TO OVERSIGHT REPORTS
                                                               EXECUTIVE
                                                                     AND WEBSITES
                                                                         SUMMARY




DoD IG

http://www.dodig.osd.mil/




                            Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 71
EXECUTIVE2SUMMARY
APPENDIX   – LINKS TO OVERSIGHT REPORTS AND WEBSITES




  DoD IG (cont.)

  http://www.dodig.osd.mil/




72 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                             APPENDIX 2 – LINKS TO OVERSIGHT REPORTS
                                                               EXECUTIVE
                                                                     AND WEBSITES
                                                                         SUMMARY




DoD IG (cont.)

http://www.dodig.osd.mil/




                            Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 73
EXECUTIVE2SUMMARY
APPENDIX   – LINKS TO OVERSIGHT REPORTS AND WEBSITES




  DoD IG (cont.)

  http://www.dodig.osd.mil/




74 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                             APPENDIX 2 – LINKS TO OVERSIGHT REPORTS
                                                               EXECUTIVE
                                                                     AND WEBSITES
                                                                         SUMMARY




USAID OIG

http://www.usaid.gov/oig/




                            Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 75
EXECUTIVE2SUMMARY
APPENDIX   – LINKS TO OVERSIGHT REPORTS AND WEBSITES




  USAID OIG (cont.)
  http://www.usaid.gov/oig/




76 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                       APPENDIX 2 – LINKS TO OVERSIGHT REPORTS
                                                         EXECUTIVE
                                                               AND WEBSITES
                                                                   SUMMARY




GAO

http://www.gao.gov/




                      Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 77
EXECUTIVE2SUMMARY
APPENDIX   – LINKS TO OVERSIGHT REPORTS AND WEBSITES




  GAO (cont.)

  http://www.gao.gov/




78 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                      APPENDIX 3 – JOINT ANNOUNCEMENT
                                          EXECUTIVE SUMMARY
                                                       MEMO




       APPENDIX 3
Joint Announcement Memo




     Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 79
EXECUTIVE3SUMMARY
APPENDIX   – JOINT ANNOUNCEMENT MEMO




80 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                 APPENDIX 3 – JOINT ANNOUNCEMENT
                                     EXECUTIVE SUMMARY
                                                  MEMO




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 81
EXECUTIVE4SUMMARY
APPENDIX   – INSPECTOR GENERAL REFORM ACT OF 2008




                                APPENDIX 4
                   INSPECTOR GENERAL REFORM ACT OF 2008




82 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
    APPENDIX 4 – INSPECTOR GENERAL EXECUTIVE
                                   REFORM ACTSUMMARY
                                               OF 2008




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 83
EXECUTIVE4SUMMARY
APPENDIX   – INSPECTOR GENERAL REFORM ACT OF 2008




84 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
    APPENDIX 4 – INSPECTOR GENERAL EXECUTIVE
                                   REFORM ACTSUMMARY
                                               OF 2008




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 85
EXECUTIVE4SUMMARY
APPENDIX   – INSPECTOR GENERAL REFORM ACT OF 2008




86 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
    APPENDIX 4 – INSPECTOR GENERAL EXECUTIVE
                                   REFORM ACTSUMMARY
                                               OF 2008




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 87
EXECUTIVE4SUMMARY
APPENDIX   – INSPECTOR GENERAL REFORM ACT OF 2008




88 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
    APPENDIX 4 – INSPECTOR GENERAL EXECUTIVE
                                   REFORM ACTSUMMARY
                                               OF 2008




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 89
EXECUTIVE4SUMMARY
APPENDIX   – INSPECTOR GENERAL REFORM ACT OF 2008




90 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
    APPENDIX 4 – INSPECTOR GENERAL EXECUTIVE
                                   REFORM ACTSUMMARY
                                               OF 2008




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 91
EXECUTIVE4SUMMARY
APPENDIX   – INSPECTOR GENERAL REFORM ACT OF 2008




92 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
    APPENDIX 4 – INSPECTOR GENERAL EXECUTIVE
                                   REFORM ACTSUMMARY
                                               OF 2008




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 93
EXECUTIVE4SUMMARY
APPENDIX   – INSPECTOR GENERAL REFORM ACT OF 2008




94 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
    APPENDIX 4 – INSPECTOR GENERAL EXECUTIVE
                                   REFORM ACTSUMMARY
                                               OF 2008




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 95
EXECUTIVE4SUMMARY
APPENDIX   – INSPECTOR GENERAL REFORM ACT OF 2008




96 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
    APPENDIX 4 – INSPECTOR GENERAL EXECUTIVE
                                   REFORM ACTSUMMARY
                                               OF 2008




Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 97
EXECUTIVE4SUMMARY
APPENDIX   – INSPECTOR GENERAL REFORM ACT OF 2008




98 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                          APPENDIX 5 – ACRONYMS EXECUTIVE
                                                                AND ABBREVIATIONS
                                                                          SUMMARY




                        APPENDIX 5
                 Acronyms and Abbreviations

AFSA       Afghanistan Freedom Support Act
ANDS       Afghan National Development Strategy
ANSF       Afghan National Security Forces
ASFF       Afghanistan Security Forces Fund
BBG        Broadcasting Board of Governors
CDC MRE    Center for Disease Control Mine Risk Education
CENTCOM    United States Central Command
CERP       Commanders’ Emergency Response Program
CFC-A      Combined Forces Command - Afghanistan
CJTF-101   Combined Joint Task Force - 101
CSH        Child Survival and Health
CSTC - A   Combined Security Transition Command - Afghanistan
DC&P       Disease Control and Prevention
DEA        Drug Enforcement Administration
DEA CN     Drug Enforcement Administration Counternarcotics
DoD        Department of Defense
DoD CN     Department of Defense Counternarcotics
DoD E&EE   Department of Defense Emergency and Extraordinary Expense
DoD IG     Department of Defense Inspector General
DoD OMA    Department of Defense Operations and Maintenance
DoD T&E    Department of Defense Train and Equip
DRT        District Reconstruction Team
ePRT       Embedded Provincial Reconstruction Team
ERMA       Emergency Refugee and Migration Assistance
ESF        Economic Support Funds
FBI        Federal Bureau of Investigations
FMF        Foreign Military Financing
FSA        Freedom Support Act
FY         Fiscal year
GAO        Government Accountability Of¿ce
GHAI       Greater Horn of Africa Initiative
GIRoA      Government of the Islamic Republic of Afghanistan
GWOT       Global War on Terrorism
IDA        International Disaster Assistance
IG         Inspector General
IMET       International Military and Educational Training
INCLE      International Narcotics Control and Law Enforcement
INL        Bureau of International Narcotics and Law Enforcement
IO&P       International Organizations and Programs
ISAF       International Security Assistance Force



                            Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 99
EXECUTIVE5SUMMARY
APPENDIX   – ACRONYMS AND ABBREVIATIONS




    JFC - Brunssum     Joint Forces Command Brunssum
    LGCD               Local Governance and Community Development
    MRA                Migration and Refugee Assistance
    NADR – ATA         Non-proliferation, Anti-terrorism, Demining, and Related Programs –
                       Anti-Terrorism Assistance
    NADR – CTF         Non-proliferation, Anti-terrorism, Demining, and Related Programs –
                       Counterterrorism Finance
    NADR – EXBS        Non-proliferation, Anti-terrorism, Demining, and Related Programs –
                       Export and Border Security
    NADR - HD          Non-proliferation, Anti-terrorism, Demining, and Related Programs –
                       Humanitarian Demining
    NADR – NDS         Non-proliferation, Anti-terrorism, Demining, and Related Programs –
                       Non-Proliferation and Disarmament
    NADR – SALW        Non-proliferation, Anti-terrorism, Demining, and Related Programs –
                       Small Arms Light Weapons
    NADR – TIP         Non-proliferation, Anti-terrorism, Demining, and Related Programs –
                       Terrorist Interdiction Program
    NATO               North Atlantic Trade Organization
    NDAA               National Defense Appropriations Act
    OEF                Operation Enduring Freedom
    OHDACA             Overseas Humanitarian Disaster and Civic Aid
    OIG                Of¿ce of the Inspector General
    OMB                Of¿ce of Management and Budget
    OTI                Of¿ce of Transition Initiatives
    PDIG               Principal Deputy Inspector General
    PKO                Peacekeeping operations
    PRT                Provincial Reconstruction Team
    PRT ESC            PRT Executive Steering Committee
    PST                Provincial Support Team
    QIP                Quick impact projects
    RC East            Regional Command East
    RLC                Regional Logistic Center
    ROL                Rule of law
    SHAPE              Supreme Headquarters Allied Powers in Europe
    SIGAR              Special Inspector for Afghanistan Reconstruction
    State              Department of State
    State OIG          Department of State Of¿ce of the Inspector General
    TTA                Treasury Technical Assistance
    UN                 United Nations
    USACE              United States Army Corps of Engineers
    USAID              United States Agency for International Development
    USAID OE           United States Agency for International Development Operating Expense
    USAID OIG          United States Agency for International Development Of¿ce of the
                       Inspector General


100 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                           APPENDIX 5 – ACRONYMS EXECUTIVE
                                                                 AND ABBREVIATIONS
                                                                           SUMMARY




USDA        United States Department of Agriculture
USFOR - A   United States Forces - Afghanistan
USG         United States government




                            Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 101
EXECUTIVE6SUMMARY
APPENDIX   – ENDNOTES




                                               APPENDIX 6
                                                Endnotes
  1
      National Defense Authorization Act for Fiscal Year 2008. (2008). Pub. L. no. 110-181, Sec. 1229.

  2
      National Defense Authorization Act for Fiscal Year 2008. (2008). Pub. L. no. 110-181, Sec. 1229.

  3
      Afghanistan Freedom Support Act of 2002 (2002). Pub. L. no 107-327.

  4
   The Bonn Agreement. (2001). Retrieved from http://www.mfa.gov.af/Documents/ImportantDoc/The%20
  Bonn%20Agreement.pdf

  5
   Afghanistan Compact. (2006). Retrieved from http://www.mfa.gov.af/Documents/ImportantDoc/
  Afghanistan%20Compact.pdf

  6
   Afghanistan National Development Strategy. (2008). Retrieved from http://www.embassyofafghanistan.
  org/documents/Afghanistan_national_development_strategy_eng.pdf

  7
   Department of Defense. “Defense Department Activates U.S. Forces-Afghanistan.” October 06, 2008.
  Retrieved from http://www.defenselink.mil/releases/release.aspx?releaseid=12267

  8
   Department of Defense. “Defense Department Activates U.S. Forces-Afghanistan.” October 06, 2008.
  Retrieved from http://www.defenselink.mil/releases/release.aspx?releaseid=12267

  9
    NATO. International Security Assistance Force (ISAF). (January 12, 2009). Retrieved from http://www.
  nato.int/issues/isaf/index.html

  10
   Based on DoD information presented in Agency Stovepipes vs. Strategic Agility: Lessons We Need to
  Learn from Provincial Reconstruction Teams in Iraq and Afghanistan (Report 41-409). (April 2008). U.S.
  House of Representatives Committee on Armed Services, Subcommittee on Oversight & Investigations.
  Retrieved from http://armedservices.house.gov/pdfs/Reports/PRT_Report.pdf

  11
    Afghanistan National Development Strategy. (2008). Retrieved from http://www.embassyofafghanistan.
  org/documents/Afghanistan_national_development_strategy_eng.pdf

  12
    Perito, Robert M. (October 2005). The U.S. Experience with Provincial Reconstruction Teams in
  Afghanistan (Special Report 152). U.S. Institute of Peace. Retrieved from http://www.usip.org/pubs/
  specialreports/sr152.pdf

  13
       Department of State, Response to Data Call, January 17, 2009.

  14
       Department of State, Response to Data Call, January 17, 2009.

    Department of Defense. (June 2008). Report on Progress toward Security and Stability in Afghanistan.
  Retrieved from http://www.defenselink.mil/pubs/Report_on_Progress_toward_Security_and_Stability_in_
  Afghanistan_1230.pdf

  15
    Straziuso, Jason. (December 21, 2008). U.S. Might Double Afghanistan Force. Associated Press.
  Retrieved from http://www.washingtonpost.com/wp-dyn/content/article/2008/12/20/AR2008122002073.
  html



102 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                                 APPENDIX
                                                                                    EXECUTIVE
                                                                                          6 – ENDNOTES
                                                                                              SUMMARY



16
 Bumiller, Elisabeth. (December 11, 2008). Additional U.S. troops slated for Afghanistan. International
Herald Tribune. Retrieved from http://www.iht.com/articles/2008/12/11/asia/gates.php

17
 Morgan, David. (November 22, 2008). U.S. eyes "surge" of over 20,000 for Afghanistan. Reuters.
Retrieved from http://www.iht.com/articles/reuters/2008/11/22/europe/OUKWD-UK-AFGHAN-NATO-
TROOPS.php

18
  More troops needed quickly in Afghanistan, general says. (October 1, 2008). CNN. Retrieved from
http://edition.cnn.com/2008/WORLD/asiapcf/10/01/afghan.troops/index.html

19
  More troops needed quickly in Afghanistan, general says. (October 1, 2008). CNN. Retrieved from
http://edition.cnn.com/2008/WORLD/asiapcf/10/01/afghan.troops/index.html

20
 Bumiller, Elisabeth. (December 11, 2008). Gates Seeks More Troops in Afghanistan by Spring. The
New York Times. Retrieved from http://www.nytimes.com/2008/12/12/world/middleeast/12gates.html?hp

21
  Government Accountability Of¿ce. About GAO. Retrieved January 6, 2008 from http://www.gao.gov/
about/index.html.

22
  United States Agency for International Development Of¿ce of the Inspector General. (November 10,
2005). USAID OIG Mission. Retrieved from http://www.usaid.gov/oig/whoweare/mission1.htm.

23
 Department of Defense. Defense Hotline. Retrieved January 5, 2008 from http://www.dodig.osd.mil/
HOTLINE/hotline1.htm

24
  In respect to DoD’s Afghanistan efforts, the DoD Inspector General in November 2008, the Acting DoD
Inspector General, Gordon S. Heddell, hosted Maj. Gen. Sardar Mohammad Abul Fazil, the Afghanistan
Ministry of Defense Inspector General, and Brig. Gen. Abdul Rashid, Deputy Inspector General for the
Afghanistan National Army General Staff Of¿ce of Inspector General. The visit allowed the members of
the group to see where their respective organizations are in comparison with the U.S. organizations and
programs upon which their agencies are modeled. DoD Response to data call, January 14, 2009.

25
  Department of State. OIG's Mission. Retrieved January 5, 2008 from http://oig.state.gov/about/index.
htm

26
  Department of State. OIG's Mission. Retrieved January 5, 2008 from http://oig.state.gov/about/index.
htm

27
  Department of State Of¿ce of the Inspector General. (January 2008). Rule-of-Law Programs in
Afghanistan (ISP-I-08-09). Retrieved from http://oig.state.gov/documents/organization/106946.pdf

28
  Department of State Of¿ce of the Inspector General. (July 2007). Interagency Assessment of the
Counternarcotics Program in Afghanistan (ISP-I-07-34). Retrieved from http://oig.state.gov/documents/
organization/90158.pdf

29
  Department of State Of¿ce of the Inspector General. (January 2008). Rule-of-Law Programs in
Afghanistan (ISP-I-08-09). Retrieved from http://oig.state.gov/documents/organization/106946.pdf

30
  Department of State Of¿ce of the Inspector General. (September 7, 2008). Government-Owned
Personal Property Held by Selected Contractors in Afghanistan (AUD/IQO-07-48). Retrieved from http://
oig.state.gov/documents/organization/98767.pdf




                                         Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 103
EXECUTIVE6SUMMARY
APPENDIX   – ENDNOTES



  31
    Department of State Of¿ce of the Inspector General. (July 2005). Inspection of the Bureau of
  International Narcotics and Law Enforcement Affairs (ISP-I-05-14). Retrieved from http://oig.state.gov/
  documents/organization/50283.pdf

  32
    Department of State Of¿ce of the Inspector General. (January 2008). Rule-of-Law Programs in
  Afghanistan (ISP-I-08-09). Retrieved from http://oig.state.gov/documents/organization/106946.pdf

  33
    Department of State Of¿ce of the Inspector General. (November 2006). Interagency Assessment
  of Afghanistan Police Training and Readiness (ISP-IQO-07-07). Retrieved from http://oig.state.gov/
  documents/organization/76103.pdf

  34
    Department of State Of¿ce of the Inspector General. (November 2006). Interagency Assessment
  of Afghanistan Police Training and Readiness (ISP-IQO-07-07). Retrieved from http://oig.state.gov/
  documents/organization/76103.pdf

  35
    Department of State Of¿ce of the Inspector General. (July 2007). Interagency Assessment of the
  Counternarcotics Program in Afghanistan (ISP-I-07-34). Retrieved from http://oig.state.gov/documents/
  organization/90158.pdf

  36
    Department of State Of¿ce of the Inspector General. (July 2007). Interagency Assessment of the
  Counternarcotics Program in Afghanistan (ISP-I-07-34). Retrieved from http://oig.state.gov/documents/
  organization/90158.pdf

  37
    Department of State Of¿ce of the Inspector General. (November 2006). Interagency Assessment
  of Afghanistan Police Training and Readiness (ISP-IQO-07-07). Retrieved from http://oig.state.gov/
  documents/organization/76103.pdf

  38
    Department of State Of¿ce of the Inspector General. (January 2008). Rule-of-Law Programs in
  Afghanistan (ISP-I-08-09). Retrieved from http://oig.state.gov/documents/organization/106946.pdf

  39
     Department of State Of¿ce of the Inspector General. (September 7, 2008). Government-Owned
  Personal Property Held by Selected Contractors in Afghanistan (AUD/IQO-07-48). Retrieved from http://
  oig.state.gov/documents/organization/98767.pdf

  40
    Department of Defense Inspector General. (February 28, 2007). Implementation of the Commanders'
  Emergency Response Program in Afghanistan (D-2007-064). Retrieved from http://www.dodig.mil/Audit/
  reports/FY07/07-064.pdf.

  41
   Department of Defense Inspector General. (October 14, 2005). Contracts Awarded to Assist the Global
  War on Terrorism by the U.S. Army Corps of Engineers (D-2006-007). Retrieved from http://www.dodig.
  mil/Audit/reports/fy06/06-007.pdf

  42
   Department of Defense Inspector General. (October 14, 2005). Contracts Awarded to Assist the Global
  War on Terrorism by the U.S. Army Corps of Engineers (D-2006-007). Retrieved from http://www.dodig.
  mil/Audit/reports/fy06/06-007.pdf

  43
    Department of State Of¿ce of the Inspector General. (November 2006). Interagency Assessment
  of Afghanistan Police Training and Readiness (ISP-IQO-07-07). Retrieved from http://oig.state.gov/
  documents/organization/76103.pdf




104 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                                APPENDIX
                                                                                   EXECUTIVE
                                                                                         6 – ENDNOTES
                                                                                             SUMMARY



44
  Department of Defense Inspector General. (February 28, 2007). Implementation of the Commanders'
Emergency Response Program in Afghanistan (D-2007-064). Retrieved from http://www.dodig.mil/Audit/
reports/FY07/07-064.pdf.

45
  Department of State Of¿ce of the Inspector General. (November 2006). Interagency Assessment
of Afghanistan Police Training and Readiness (ISP-IQO-07-07). Retrieved from http://oig.state.gov/
documents/organization/76103.pdf

46
 Department of Defense Inspector General. (October 14, 2005). Contracts Awarded to Assist the Global
War on Terrorism by the U.S. Army Corps of Engineers (D-2006-007). Retrieved from http://www.dodig.
mil/Audit/reports/fy06/06-007.pdf

47
 Department of Defense Inspector General. (October 14, 2005). Contracts Awarded to Assist the Global
War on Terrorism by the U.S. Army Corps of Engineers (D-2006-007). Retrieved from http://www.dodig.
mil/Audit/reports/fy06/06-007.pdf

48
     DoD response to Data Call, December 15, 2008.

49
     DoD response to Data Call, December 15, 2008.

50
  United States Agency for International Development Of¿ce of the Inspector General. (December 4,
2008). Audit of USAID/Afghanistan’s Higher Education Project (5-306-09-002). Retrieved from http://
www.usaid.gov/oig/public/fy09rpts/5-306-09-002-p.pdf

51
  United States Agency for International Development Of¿ce of the Inspector General. (August 18,
2006). Audit of USAID/Afghanistan’s Alternative Development Program–Southern Region (5-306-06-
008-P). Retrieved from http://www.usaid.gov/oig/public/fy06rpts/5-306-06-008-p.pdf

52
 United States Agency for International Development Of¿ce of the Inspector General. (June 23, 2008)
Audit of USAID/Afghanistan’s Small and Medium Enterprise Development Activity (5-306-08-006-P).
Retrieved from http://www.usaid.gov/oig/public/fy08rpts/5-306-08-006-p.pdf

53
  United States Agency for International Development Of¿ce of the Inspector General. (February 13,
2007) Audit of USAID/Afghanistan’s Alternative Livelihood Program – Eastern region (5-306-07-002-P).
Retrieved from http://www.usaid.gov/oig/public/fy07rpts/5-306-07-002-p.pdf

54
   United States Agency for International Development Of¿ce of the Inspector General. (March 14, 2005).
Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program (5-306-05-003-P). Retrieved
from http://www.usaid.gov/oig/public/fy05rpts/5-306-05-003-p.pdf

55
   United States Agency for International Development Of¿ce of the Inspector General. (March 14, 2005).
Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program (5-306-05-003-P). Retrieved
from http://www.usaid.gov/oig/public/fy05rpts/5-306-05-003-p.pdf

56
  United States Agency for International Development Of¿ce of the Inspector General. (September 30,
2008). Audit of USAID/Afghanistan's Capacity Development Program (5-306-08-012-P). Retrieved from
http://www.usaid.gov/oig/public/fy08rpts/5-306-08-012-p.pdf

57
  United States Agency for International Development Of¿ce of the Inspector General. (March 14, 2005).
Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program (5-306-05-003-P). Retrieved
from http://www.usaid.gov/oig/public/fy05rpts/5-306-05-003-p.pdf




                                        Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 105
EXECUTIVE6SUMMARY
APPENDIX   – ENDNOTES



  58
     United States Agency for International Development Of¿ce of the Inspector General. (March 14, 2005).
  Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program (5-306-05-003-P). Retrieved
  from http://www.usaid.gov/oig/public/fy05rpts/5-306-05-003-p.pdf

  59
    United States Agency for International Development Of¿ce of the Inspector General. (August 18,
  2006). Audit of USAID/Afghanistan’s Alternative Development Program–Southern Region (5-306-06-
  008-P). Retrieved from http://www.usaid.gov/oig/public/fy06rpts/5-306-06-008-p.pdf

  60
    United States Agency for International Development Of¿ce of the Inspector General. (August 18,
  2006). Audit of USAID/Afghanistan’s Alternative Development Program–Southern Region (5-306-06-
  008-P). Retrieved from http://www.usaid.gov/oig/public/fy06rpts/5-306-06-008-p.pdf

  61
     United States Agency for International Development Of¿ce of the Inspector General. (August 8. 2008).
  Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program (5-306-08-009-P) Retrieved
  from http://www.usaid.gov/oig/public/fy08rpts/5-306-08-009-p.pdf

  62
    United States Agency for International Development Of¿ce of the Inspector General. (June 7, 2007).
  Audit of USAID/Afghanistan’s Urban Water and Sanitation Program (5-306-07-006-P). Retrieved from
  http://www.usaid.gov/oig/public/fy07rpts/5-306-07-006-p.pdf

  63
     United States Agency for International Development Of¿ce of the Inspector General. (August 8. 2008).
  Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program (5-306-08-009-P) Retrieved
  from http://www.usaid.gov/oig/public/fy08rpts/5-306-08-009-p.pdf

  64
    United States Agency for International Development Of¿ce of the Inspector General. (December 4,
  2008). Audit of USAID/Afghanistan’s Higher Education Project (5-306-09-002-P). Retrieved from http://
  www.usaid.gov/oig/public/fy09rpts/5-306-09-002-p.pdf

  65
   United States Agency for International Development Of¿ce of the Inspector General. (June 23, 2008)
  Audit of USAID/Afghanistan’s Small and Medium Enterprise Development Activity (5-306-08-006-P).
  Retrieved from http://www.usaid.gov/oig/public/fy08rpts/5-306-08-006-p.pdf

  66
     Government Accountability Of¿ce. (July 2008). Afghanistan Reconstruction: Progress Made in
  Constructing Roads, but Assessments for Determining Impact and a Sustainable Maintenance Program
  Are Needed (GAO-08-689). Retrieved from http://www.gao.gov/new.items/d08689.pdf

  67
   Government Accountability Of¿ce. (June 2008). Afghanistan Security: Further Congressional Action
  May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain Capable Afghan
  National Security Forces (GAO-08-661). Retrieved from http://www.gao.gov/new.items/d08661.pdf

  68
    Government Accountability Of¿ce. (November 15, 2006). Afghanistan Drug Control: Despite Improved
  Efforts, Deteriorating Security Threatens Success of U.S. Goals (GAO-07-78).Retrieved from http://www.
  gao.gov/new.items/d0778.pdf

  69
    Government Accountability Of¿ce. (May 24, 2007). Securing, Stabilizing, and Reconstructing
  Afghanistan: Key Issues for Congressional Oversight (GAO-07-801SP). Retrieved from http://www.gao.
  gov/new.items/d07801sp.pdf

  70
   Government Accountability Of¿ce. (May 24, 2007). Securing, Stabilizing, and Reconstructing Afghanistan:
  Key Issues for Congressional Oversight (GAO-07-801SP). Retrieved from http://www.gao.gov/new.items/
  d07801sp.pdf




106 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                                APPENDIX
                                                                                   EXECUTIVE
                                                                                         6 – ENDNOTES
                                                                                             SUMMARY



71
  Government Accountability Of¿ce. (May 24, 2007). Securing, Stabilizing, and Reconstructing
Afghanistan: Key Issues for Congressional Oversight (GAO-07-801SP). Retrieved from http://www.gao.
gov/new.items/d07801sp.pdf

72
  Government Accountability Of¿ce. (July 28, 2005). Afghanistan Reconstruction: Despite Some
Progress, Deteriorating Security and Other Obstacles Continue to Threaten Achievement of U.S. Goals
(GAO-05-742). Retrieved from http://www.gao.gov/new.items/d05742.pdf
 Government Accountability Of¿ce. (July 2008). Afghanistan Reconstruction: Progress Made in
Constructing Roads, but Assessments for Determining Impact and a Sustainable Maintenance Program
Are Needed (GAO-08-689). Retrieved from http://www.gao.gov/new.items/d08689.pdf

73
 Government Accountability Of¿ce. (June 2008). Afghanistan Security: Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain Capable Afghan
National Security Forces (GAO-08-661). Retrieved from http://www.gao.gov/new.items/d08661.pdf

74
  Government Accountability Of¿ce. (June, 2004). Afghanistan Reconstruction: Deteriorating Security
and Limited Resources Have Impeded Progress; Improvements in U.S. Strategy Needed (GAO-04-403).
Retrieved from http://www.gao.gov/new.items/d04403.pdf

75
  Government Accountability Of¿ce. (June 18, 2008). Afghanistan Security: U.S. Efforts to Develop
Capable Afghan Police Forces Face Challenges and Need a Coordinated, Detailed Plan to Help Ensure
Accountability (GAO-08-883T). Retrieved from http://www.gao.gov/new.items/d08883t.pdf

76
 Government Accountability Of¿ce. (June 2008). Afghanistan Security: Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain Capable Afghan
National Security Forces (GAO-08-661). Retrieved from http://www.gao.gov/new.items/d08661.pdf

77
 Government Accountability Of¿ce. (June 30, 2003). Foreign Assistance: Lack of Strategic Focus and
Obstacles to Agricultural Recovery Threaten Afghanistan's Stability (GAO-03-607). Retrieved from http://
www.gao.gov/new.items/d03607.pdf

78
  Government Accountability Of¿ce. (July 28, 2005). Afghanistan Reconstruction: Despite Some
Progress, Deteriorating Security and Other Obstacles Continue to Threaten Achievement of U.S. Goals
(GAO-05-742). Retrieved from http://www.gao.gov/new.items/d05742.pdf

79
   Government Accountability Of¿ce. (June 2008). Afghanistan Security: Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain Capable Afghan
National Security Forces (GAO-08-661). Retrieved from http://www.gao.gov/new.items/d08661.pdf

80
  Information provided by the Afghanistan Interagency Bi-monthly Fund Status Review Group, which is
chaired by the National Security Council and consists of fund managers from State (Bureau of South and
Central Asian Affairs, Bureau of International Narcotics and Law Enforcement Affairs, Of¿ce of Foreign
Affairs, IG), USAID, USAID OIG, DoD, DoD IG, Treasury, U.S. Army Corps of Engineers, Department of
Agriculture, Of¿ce of the Secretary of Defense Comptroller, and Drug Enforcement Administration.

81
     Information provided by the Afghanistan Interagency Bi-monthly Fund Status Review Group.

82
  The Afghanistan Interagency Bi-monthly Fund Status Review Group is chaired by the National Security
Council and consists of fund managers from State (Bureau of South and Central Asian Affairs, Bureau
of International Narcotics and Law Enforcement Affairs, Of¿ce of Foreign Affairs, IG), USAID, USAID
OIG, DoD, DoD IG, Treasury, U.S. Army Corps of Engineers, Department of Agriculture, Of¿ce of the
Secretary of Defense Comptroller, and Drug Enforcement Administration.



                                          Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 107
EXECUTIVE6SUMMARY
APPENDIX   – ENDNOTES



  83
       Department of State, U.S. Department of Agriculture. Response to Data Call, December 15, 2008.

  84
       Information provided by the Afghanistan Interagency Bi-monthly Fund Status Review Group.

  85
       Information provided by the Afghanistan Interagency Bi-monthly Fund Status Review Group.

  86
    Perito, Robert M. (October 2005). The U.S. Experience with Provincial Reconstruction Teams in
  Afghanistan (Special Report 152). U.S. Institute of Peace. Retrieved from http://www.usip.org/pubs/
  specialreports/sr152.pdf

  87
    Perito, Robert M. (October 2005). The U.S. Experience with Provincial Reconstruction Teams in
  Afghanistan (Special Report 152). U.S. Institute of Peace. Retrieved from http://www.usip.org/pubs/
  specialreports/sr152.pdf

  88
   Government Accountability Of¿ce. (October 1, 2008). Provincial Reconstruction Teams (GAO-09-86R).
  Retrieved from http://www.gao.gov/new.items/d0986r.pdf

  89
   Government Accountability Of¿ce. (October 1, 2008). Provincial Reconstruction Teams (GAO-09-86R).
  Retrieved from http://www.gao.gov/new.items/d0986r.pdf

  90
    In addition to personnel from the lead nation, some PRTs also contain personnel from other ISAF
  countries.

  91
   Government Accountability Of¿ce. (October 1, 2008). Provincial Reconstruction Teams (GAO-09-86R).
  Retrieved from http://www.gao.gov/new.items/d0986r.pdf

  92
    NATO. (December 1, 2008) ISAF Troops in Numbers (Placemat). Retrieved from http://www.nato.int/
  isaf/docu/epub/pdf/isaf_placemat_081201.pdf

  93
   Nima Abbaszadeh et al. (January 2008). Provincial Reconstruction Teams, Lessons and
  Recommendations, Woodrow Wilson School of Public & International Affairs, Princeton University.
  Retrieved from http://wws.princeton.edu/research/pwreports_f07/wws591b.pdf

  94
   Nima Abbaszadeh et al. (January 2008). Provincial Reconstruction Teams, Lessons and
  Recommendations, Woodrow Wilson School of Public & International Affairs, Princeton University.
  Retrieved from http://wws.princeton.edu/research/pwreports_f07/wws591b.pdf

  95
    Perito, Robert M. (October 2005). The U.S. Experience with Provincial Reconstruction Teams in
  Afghanistan (Special Report 152). U.S. Institute of Peace. Retrieved from http://www.usip.org/pubs/
  specialreports/sr152.pdf

  96
   Nima Abbaszadeh et al. (January 2008). Provincial Reconstruction Teams, Lessons and
  Recommendations, Woodrow Wilson School of Public & International Affairs, Princeton University.
  Retrieved from http://wws.princeton.edu/research/pwreports_f07/wws591b.pdf

  97
    Perito, Robert M. (October 2005). The U.S. Experience with Provincial Reconstruction Teams in
  Afghanistan (Special Report 152). U.S. Institute of Peace. Retrieved from http://www.usip.org/pubs/
  specialreports/sr152.pdf

  98
   Government Accountability Of¿ce. (October 1, 2008). Provincial Reconstruction Teams (GAO-09-86R).
  Retrieved from http://www.gao.gov/new.items/d0986r.pdf




108 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
                                                                              APPENDIX
                                                                                 EXECUTIVE
                                                                                       6 – ENDNOTES
                                                                                           SUMMARY



Nima Abbaszadeh et al. (January 2008). Provincial Reconstruction Teams, Lessons and
Recommendations, Woodrow Wilson School of Public & International Affairs, Princeton University.
Retrieved from http://wws.princeton.edu/research/pwreports_f07/wws591b.pdf

99
 Government Accountability Of¿ce. (October 1, 2008). Provincial Reconstruction Teams (GAO-09-86R).
Retrieved from http://www.gao.gov/new.items/d0986r.pdf

100
  Government Accountability Of¿ce. (October 1, 2008). Provincial Reconstruction Teams (GAO-09-
86R). Retrieved from http://www.gao.gov/new.items/d0986r.pdf

101
   Agency Stovepipes vs. Strategic Agility: Lessons We Need to Learn from Provincial Reconstruction
Teams in Iraq and Afghanistan (Report 41-409). (April 2008). U.S. House of Representatives Committee
on Armed Services, Subcommittee on Oversight & Investigations. Retrieved from http://armedservices.
house.gov/pdfs/Reports/PRT_Report.pdf

102
   Department of Defense. (June 2008). Report on Progress toward Security and Stability in
Afghanistan. Retrieved from http://www.defenselink.mil/pubs/Report_on_Progress_toward_Security_
and_Stability_in_Afghanistan_1230.pdf.

103
  Government Accountability Of¿ce. (October 1, 2008). Provincial Reconstruction Teams (GAO-09-
86R). Retrieved from http://www.gao.gov/new.items/d0986r.pdf

104
  Nima Abbaszadeh et al. (January 2008). Provincial Reconstruction Teams, Lessons and
Recommendations, Woodrow Wilson School of Public & International Affairs, Princeton University.
Retrieved from http://wws.princeton.edu/research/pwreports_f07/wws591b.pdf

105
  Government Accountability Of¿ce. (October 1, 2008). Provincial Reconstruction Teams (GAO-09-
86R). Retrieved from http://www.gao.gov/new.items/d0986r.pdf

106
   Agency Stovepipes vs. Strategic Agility: Lessons We Need to Learn from Provincial Reconstruction
Teams in Iraq and Afghanistan (Report 41-409). (April 2008). U.S. House of Representatives Committee
on Armed Services, Subcommittee on Oversight & Investigations. Retrieved from http://armedservices.
house.gov/pdfs/Reports/PRT_Report.pdf

107
   Agency Stovepipes vs. Strategic Agility: Lessons We Need to Learn from Provincial Reconstruction
Teams in Iraq and Afghanistan (Report 41-409). (April 2008). U.S. House of Representatives Committee
on Armed Services, Subcommittee on Oversight & Investigations. Retrieved from http://armedservices.
house.gov/pdfs/Reports/PRT_Report.pdf

108
  U.S. Agency for International Development. (January 27, 2006). Afghanistan: Provincial
Reconstruction Teams Fact Sheet. Retrieved December 11, 2008, from www.usaid.gov/iraq/contracts/
pdf/AI2-ProvincialReconstructionTeams-FACTSHEET.pdf

109
  U.S. Agency for International Development. (January 5, 2009). PRT Quick Impact Projects. Retrieved
January 12, 2008, from http://afghanistan.usaid.gov/en/Activity.91.aspx

110
  U.S. Agency for International Development. (January 5, 2009). Local Governance and Community
Development (LGCD) Project. Retrieved January 12, 2008, from http://afghanistan.usaid.gov/en/
Activity.90.aspx

111
  Emergency Supplemental Appropriations Act for Defense and for the Reconstruction of Iraq and
Afghanistan. (2004). Pub. L. no. 108-106.



                                       Of¿ce of the SIGAR | January 30, 2009 Report To Congress I 109
EXECUTIVE6SUMMARY
APPENDIX   – ENDNOTES



  112
        Department of State, Response to Data Call, January 17, 2008.

  113
        Department of State, Response to Data Call, January 17, 2008.

  114
    Perito, Robert M. (October 2005). The U.S. Experience with Provincial Reconstruction Teams in
  Afghanistan (Special Report 152). U.S. Institute of Peace. Retrieved from http://www.usip.org/pubs/
  specialreports/sr152.pdf

  115
        Departments of Defense and State. (October 21, 2008). Joint Announcement Memo.

  116
    U.S. Agency for International Development. (November 2006). OECD/DAC Peer Review of the United
  States. Retrieved from http://pdf.usaid.gov/pdf_docs/PDACI333.pdf

  117
    Government Accountability Of¿ce. (September 2005). A Glossary of Terms Used in the Federal
  Budget Process. (GAO-05-734SP). Retrieved from http://www.gao.gov/new.items/d05734sp.pdf

  118
    Government Accountability Of¿ce. (September 2005). A Glossary of Terms Used in the Federal
  Budget Process. (GAO-05-734SP). Retrieved from http://www.gao.gov/new.items/d05734sp.pdf

  119
    Government Accountability Of¿ce. (September 2005). A Glossary of Terms Used in the Federal
  Budget Process. (GAO-05-734SP). Retrieved from http://www.gao.gov/new.items/d05734sp.pdf

  120
      Government Accountability Of¿ce. (September 2005). A Glossary of Terms Used in the Federal
  Budget Process. (GAO-05-734SP). Retrieved from http://www.gao.gov/new.items/d05734sp.pdf

  121
     Department of State. Foreign Assistance Framework. Retrieved December 12, 2008, from http://www.
  state.gov/documents/organization/69012.pdf

  122
     International Security Assistance Force. Revised Operational Plan. (July 4, 2007). Retrieved from
    http://www.nato.int/issues/afghanistan_stage3/index.html

  123
    Government Accountability Of¿ce. (September 2005). A Glossary of Terms Used in the Federal
  Budget Process. (GAO-05-734SP). Retrieved from http://www.gao.gov/new.items/d05734sp.pdf

  124
    Of¿ce of Management and Budget. OMB’s Mission. Retrieved January 12, 2009 from http://www.
  whitehouse.gov/omb/organization/role.html

  125
    U.S. Agency for International Development. (January 5, 2009). PRT Quick Impact Projects. Retrieved
  January 12, 2008, from http://afghanistan.usaid.gov/en/Activity.91.aspx

  126
    Government Accountability Of¿ce. (September 2005). A Glossary of Terms Used in the Federal
  Budget Process. (GAO-05-734SP). Retrieved from http://www.gao.gov/new.items/d05734sp.pdf

  127
    Government Accountability Of¿ce. (September 2005). A Glossary of Terms Used in the Federal
  Budget Process. (GAO-05-734SP). Retrieved from http://www.gao.gov/new.items/d05734sp.pdf




110 | Of¿ce of the SIGAR | January 30, 2009 Report To Congress
